<html>
<title> - COMPREHENSIVE IMMIGRATION REFORM: EXAMINING THE NEED FOR A GUEST WORKER PROGRAM</title>
<body><pre>[Senate Hearing 109-607]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-607
 
COMPREHENSIVE IMMIGRATION REFORM: EXAMINING THE NEED FOR A GUEST WORKER 
                                PROGRAM

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 5, 2006

                               __________

                       PHILADELPHIA, PENNSYLVANIA

                               __________

                          Serial No. J-109-94

                               __________

         Printed for the use of the Committee on the Judiciary



                    U.S. GOVERNMENT PRINTING OFFICE
30-254                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 ARLEN SPECTER, Pennsylvania, Chairman
ORRIN G. HATCH, Utah                 PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
JOHN CORNYN, Texas                   CHARLES E. SCHUMER, New York
SAM BROWNBACK, Kansas                RICHARD J. DURBIN, Illinois
TOM COBURN, Oklahoma
           Michael O'Neill, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts..................................................     2
Specter, Hon. Arlen, a U.S. Senator from the State of 
  Pennsylvania...................................................     1

                               WITNESSES

Barletta, Hon. Louis, Mayor, Hazelton, Pennsylvania..............    11
Bird, Ronald, Chief Economist and Director, Office of Economic 
  Policy and Analysis, Department of Labor, Washington, D.C......    19
Bloomberg, Hon. Michael R., Mayor, City of New York, New York, 
  New York.......................................................     4
Connelly, Eileen, Executive Director, SEIU Pennsylvania State 
  Council, Harrisburg, Pennsylvania..............................    30
Cortes, Reverend Luis, Jr., President and Chief Executive 
  Officer, Esperanza USA, Philadelphia, Pennsylvania.............    28
Eichenlaub, Dan, President, Eichenlaub, Inc., Pittsburgh, 
  Pennsylvania...................................................    25
Hershey, Hon. Arthur, Pennsylvania House of Representatives, 13th 
  Legislative District, Chester County, Pennsylvania.............    20
Johnson, Sylvester M., Commissioner, Philadelphia Police 
  Department, Philadelphia, Pennsylvania.........................     9
Rossi, Carol, Corporate Director of Human Resources, Harrisburg 
  Hotel Corporation, Harrisburg, Pennsylvania....................    23

                       SUBMISSIONS FOR THE RECORD

Barletta, Hon. Louis, Mayor, Hazelton, Pennsylvania, statement...    40
Bird, Ronald, Chief Economist and Director, Office of Economic 
  Policy and Analysis, Department of Labor, Washington, D.C., 
  statement......................................................    45
Bloomberg, Hon. Michael R., Mayor, City of New York, New York, 
  New York, statement............................................    51
Boston Globe, June 24, 2006, article.............................    62
Connelly, Eileen, Executive Director, SEIU Pennsylvania State 
  Council, Harrisburg, Pennsylvania, statement...................    66
Cortes, Reverend Luis, Jr., President and Chief Executive 
  Officer, Esperanza USA, Philadelphia, Pennsylvania, statement..    70
Eichenlaub, Dan, President, Eichenlaub, Inc., Pittsburgh, 
  Pennsylvania, statement........................................    78
Hershey, Hon. Arthur, Pennsylvania House of Representatives, 13th 
  Legislative District, Chester County, Pennsylvania, statement..    80
Johnson, Sylvester M., Commissioner, Philadelphia Police 
  Department, Philadelphia, Pennsylvania, statement..............    83
Rossi, Carol, Corporate Director of Human Resources, Harrisburg 
  Hotel Corporation, Harrisburg, Pennsylvania, statement.........    86
Simcox, Chris, Founder and President, Minuteman Civil Defense 
  Corps, Scottsdale, Arizona, statement..........................    91


COMPREHENSIVE IMMIGRATION REFORM: EXAMINING THE NEED FOR A GUEST WORKER 
                                PROGRAM

                              ----------                              


                        WEDNESDAY, JULY 5, 2006

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:20 
a.m., in Kirby Auditorium, National Constitution Center, 525 
Arch Street, Independence Mall, Philadelphia, Pennsylvania, 
Hon. Arlen Specter, Chairman of the Committee, presiding.
    Present: Senator Kennedy.

 OPENING STATEMENT OF HON. ARLEN SPECTER, A U.S. SENATOR FROM 
                   THE STATE OF PENNSYLVANIA

    Chairman Specter. Good morning, ladies and gentlemen.
    The U.S. Senate Judiciary Committee will now proceed with 
our hearing on immigration reform.
    We thank the National Constitution Center and its 
distinguished president, Joe Torsella, for opening up this 
beautiful, historic museum to the Judiciary Committee to hold 
this hearing this morning.
    There could not be a more fitting place to have a hearing 
on immigration, considering that we are a Nation of immigrants. 
Across the green in Independence Hall, this country was 
founded. On September 17, 1787, the drafters of the 
Constitution signed the Constitution.
    We have, in an adjacent room, bronze replicas of the 
signers of the Constitution. George Washington presides there, 
as does Benjamin Franklin, seated with all delegates from all 
the States, especially Massachusetts and Pennsylvania, and a 
few from Virginia as well.
    Our C-SPAN audience is cordially invited to come to the 
Constitution Center to see the exhibits which have made this 
Nation so great.
    One of the exhibits features a famous song writer by the 
name if Irving Berlin. He is pictured in an Army uniform of the 
Dough Boys in World War I. He came to this country shortly 
after the turn of the 20th century, as did my father, Harry 
Specter, who also was a Dough Boy, fought in World War I, and 
was wounded in action in the Argonne Forest.
    Irving Berlin wrote a song, which was not recognized until 
Kate Smith sang it on Armistice Day of 1938, a song called 
``God Bless America,'' which is just one of the contributions 
of the immigrants to this country, immigrants which have made 
this country the great Nation which it is today.
    We are working on immigration reform in both the U.S. House 
of Representatives and in the U.S. Senate. The House has passed 
legislation which focuses on border control, and the Senate has 
passed legislation which is comprehensive in nature, taking 
into account border patrol and employer verification to see to 
it that those who are employed are here legally, but also 
dealing with a guest worker program, a program which is 
necessary for the American economy, a program which has been 
endorsed by President Bush and by the Speaker of the House of 
Representatives, Dennis Hastert.
    The Senate bill also has a program to deal with the 11 
million undocumented immigrants. It is the view of the Senate 
that you cannot sensibly create an under-class of fugitives who 
pose problems for national security, who also pose problems for 
law enforcement and crime control.
    We are dead set against amnesty. Amnesty is for forgiving a 
prior wrong. That is not what the Senate bill does. In order to 
qualify to stay in the United States and to ultimately qualify 
for citizenship, those undocumented immigrants must pay their 
back taxes, must go through a criminal check to be sure they 
are law- abiding citizens, must hold English, must hold a job 
for a protracted period of time, and must contribute.
    We have a series of witnesses today who will testify about 
these people who are doing so much today for our country, and a 
way to deal with them in a sound, comprehensive, humane way, 
recognizing that we are a Nation of immigrants.
    As you see, I am joined by my distinguished colleague, 
Senator Ted Kennedy from Massachusetts, who has been a leader 
in so many, many ways in the Senate, on civil rights, on 
matters of health and education, and on matters of immigration 
reform.
    Senator Kennedy is in his forty-fourth year in the U.S. 
Senate. He came to the Senate in November 1962 and has been in 
this field a long time. We welcome him to Philadelphia. He 
followed the same path as Benjamin Franklin.
    [Applause]

 STATEMENT OF HON. EDWARD M. KENNEDY, A U.S. SENATOR FROM THE 
                     STATE OF MASSACHUSETTS

    Senator Kennedy. Thank you. I, first of all, want to thank 
Senator Specter, the Chairman of our Judiciary Committee, for 
having this hearing, and having it here in Philadelphia, really 
the home of so many of our rights and liberties. All those that 
were a part of the Declaration of Independence and all those 
that were a part of the Constitution came from other lands made 
an extraordinary contribution to the greatest documents of 
freedom and democracy in the world. All of us have benefited 
from them here in these United States and in countries 
throughout the world.
    We know that today our system of immigration is broken, and 
we know that there are simplistic answers to try to deal with 
it. But Senator Specter and I agree, President Bush agrees, 
Republicans and Democrats in the U.S. Senate agreed, that what 
we really need is a comprehensive approach to deal with this 
issue.
    There are those that have a more simplified approach to 
this issue that say that we just need enforcement only, but all 
we have to do is look over the last 10 years of what happened 
with just enforcement only.
    We increased our border guards in the southern border by 
over 300 percent. We spent more than $20 billion. Yet, the 
numbers that have been coming across our southern border has 
increased by 300 or 400 percent. Enforcement only is not going 
to solve our problem.
    We cannot solve the issue of our broken immigration laws by 
simply building more fences at the border and demonizing the 12 
million undocumented immigrants, declaring them, the priests, 
and the Good Samaritans who help them to be criminals and 
naively hoping that the 12 million will just go on back to 
their country.
    So we are working together. We are having this hearing 
today because we believe in a comprehensive approach.
    We talked earlier, Senator Specter and I, about the 
contribution of immigrants. I read this morning in the 
newspaper, coming down here from Boston, about the 76 troops on 
duty in Iraq that, yesterday, took the oath of citizenship over 
at the main hall of Saddam Hussein's old hunting palace.
    The article quoted Ricardo Cortes who flew into Camp 
Victory from Rimadi, one of the most hotly contested cities in 
Iraq, where he spent the last few weeks clearing roads: ``I 
love my job. It is dangerous. There are always things being 
blown up. We have lost a couple of vehicles, but we make sure 
other people can drive safely.''
    The article described Jose DeLeon from Guatemala, who 
talked about, the pledge to bear arms in the United States 
which is included in the oath to become a naturalized citizen. 
He said, ``I thought about those words,'' DeLeon said. ``It is 
my second time of serving the country, but my country has given 
me so much. I am grateful for it, and that is why I serve.''
    Senator Specter and I, and our bipartisan group in the 
Senate, want to welcome those that have something to contribute 
to the country and keep out those that do not want to help make 
America a better and stronger land.
    [Applause]
    Senator Kennedy. Today's hearing focuses on a number of the 
important issues included in the legislation.
    Finally, we have been asked repeatedly whether there is 
really time enough to take action in the Senate and to get a 
real bill passed. Senator Specter and I remember the times that 
this country came together, and we have the opportunity to come 
together.
    We have the leaders of the great faiths in our country that 
believe this is a moral issue. We have representatives of the 
business community that understand the importance of a growing, 
expanding, and thriving economy.
    There are those that represent the worker community that 
want to make sure we are not going to continue to have the 
exploitation of the undocumented, as they are at this time, 
with substandard wages and conditions. They know that the 
protections that we have in this legislation will protect 
workers from it.
    We have a movement that Americans have seen across the 
country, of people that spontaneously came out. These people 
work hard, play by the rules, are devoted to their families, 
devoted to their faith, and want to make America a better 
country. So we ought to be able to find ways to do that. That 
is what this hearing is about.
    I thank, again, Senator Specter for having this hearing, 
and I particularly welcome Mayor Bloomberg, who has been so 
concerned about this issue. I know Senator Specter will 
introduce the other witnesses and I look forward to hearing 
their testimony.
    Thank you, sir.
    Chairman Specter. Thank you very much, Senator Kennedy.
    Our practice at a Senate hearing is not to applaud, even 
when you hear words you like, such as those just uttered by 
Senator Kennedy. So, just a word of our rules.
    We lead with the distinguished mayor of New York City, 
Mayor Michael Bloomberg, a graduate of Johns Hopkins in 
Engineering in 1964, and an MBA from Harvard. He had a 
distinguished career on Wall Street until, his resume says, he 
was fired in 1980, leading him to organize his own company, 
which is worldwide, employing 8,000 people.
    Elected as mayor of New York City in 2001 and reelected as 
mayor of New York City in 2005, he has brought a sense of 
dynamism, a sense of achievement, and a sense of spirit, the 
second-toughest job in the United States--maybe the toughest 
job in the United States.
    He came down this morning in a helicopter. He is reputed to 
fly his own helicopter. He is right on time, and we are really 
honored to have him with us.
    We have a 5-minute rule on opening statements, leaving the 
maximum amount of time for questions and answers.
    Mayor Bloomberg, the floor is yours.

  STATEMENT OF HON. MICHAEL R. BLOOMBERG, MAYOR, CITY OF NEW 
                    YORK, NEW YORK, NEW YORK

    Mayor Bloomberg. Thank you very much. Good morning, 
Chairman Specter and Senator Kennedy. Thank you for having me 
and for calling this hearing.
    Immigration reform is really one of the most important 
issues that Congress faces. I think no city would be more 
affected by the outcome of that debate than New York City.
    To begin with, let me just say how appropriate I think it 
is that this hearing is held here in Philadelphia. Two hundred 
and thirty years ago yesterday, just around the corner from 
here, our Founding Fathers adopted the greatest statement on 
the right to self-government ever written, and among those who 
signed the Declaration of Independence were nine immigrants.
    It is also true at every other critical stage of American 
history. From ratification of the Constitution, the Civil War, 
to the industrial revolution, to the computer age, immigrants 
have propelled America to greatness.
    Today, we really remain a Nation of immigrants. People from 
around the world continue to come here, seeking opportunity, 
and they continue to make America the most dynamic Nation in 
the world.
    But it is clear that we also have a fundamental problem on 
our hands. Our immigration laws are broken. It is as if we 
expect border control agents to do what a century of Communism 
could not, defeat the natural forces of supply and demand and 
defeat the natural human instinct for freedom and opportunity. 
You might as well sit on the beach and tell the tide not to 
come in!
    As long as America remains a Nation dedicated to the 
proposition that all men are created equal, endowed by the 
Creator with certain unalienable rights, that among these are 
life, liberty, and the pursuit of happiness, people from near 
and far will continue to see entry into our country.
    New York City alone is home to more than 3 million 
immigrations, who make up nearly 40 percent of our entire 
population, and about half a million came to our city, and 
continue to come, illegally. Let us be honest. They arrive for 
a very good reason: they want a better life for themselves and 
their families, and our businesses need them and hire them.
    Although they broke the law by illegally crossing our 
borders or over-staying their visas and our businesses broke 
the law by employing them, our city's economy would be a shell 
of itself had they not, and it would collapse if they were 
deported. The same holds true for our Nation.
    For our children to have a bright future, two things are 
true: a strong America needs a constant source of new 
immigrants, and in a post-9/11 world, a secure America needs to 
make sure that these immigrants arrive here legally.
    We have a right and a duty to encourage people to come, and 
at the same time to ensure that no one who is on a terrorist 
watch list sneaks into our country. Right now, we neither 
invite those we want, nor keep out those we do not.
    If we are going to both strengthen our National security 
and keep our economy growing, you, our elected legislators, 
must devise a comprehensive approach to immigration reform.
    If you could bear with me for a little more than the 5 
minutes, I would like to enumerate what those are. I believe 
such an approach embodies four key principles: 1) reducing 
incentives to come; 2) creating more lawful opportunity; 3) 
reducing illegal access; and 4) accepting reality.
    Let me, briefly, outline each one of them. First, we must 
reduce the incentive to come here illegally. As a business 
owner, I know the absurdity of our existing immigration 
regulations all too well. Employers are required to check the 
status of all job applicants, but not to do anything more than 
just eyeball their documents.
    In fact, hypocritically, the Federal law that Congress 
wrote, under that, employers are not even permitted to ask 
probing questions. As a result, fake green cards are a dime a 
dozen; you can buy one for $50 to $100. Fake Social Security 
cards are also available. For maybe $125, you can get both 
cards: such a deal.
    As most members of the U.S. Senate recognize, we absolutely 
must have a Federal data base that will allow employers to 
verify the status of all job applicants. But for this data base 
to have any value, we must also ensure that the documentation 
job applicants present is incorruptible.
    That means we need to create a biometric employment card 
containing unique information, fingerprints or DNA, for 
example. Every current job holder or applicant should be 
required to obtain a card, and every business should be 
required to check its validity against the Federal data base.
    In theory, we already have such a card. It is called your 
Social Security card. But being a government product, 
naturally, its technology is way behind the times. By taking 
advantage of current technology, we can provide the Federal 
Government with the tools necessary to enforce our immigration 
laws and protect workers from exploitive and abusive 
conditions.
    I want to be clear that this is not a national identity 
card, as some have suggested. This is simply a Social Security 
card for the 21st century. If you do not work, you do not need 
a card. But everyone who works would need to have an employment 
card, and everybody that works here legally already has one.
    There must also be stiff penalties for businesses that fail 
to conduct checks or ignore their results. Holding businesses 
accountable is the crucial step because it is the only way to 
reduce the incentive to come here illegally.
    Requiring employers to verify citizenship status was the 
promise of the 1986 immigration bill, but it was an empty 
promise, never enforced by the Federal Government. The failure 
to enforce the law was largely in response to pressure from 
businesses, which is understandable, because businesses needed 
access to a larger labor supply than Federal immigration laws 
allowed.
    Apparently fixing that problem by increasing legal 
immigration as opposed to looking the other way on illegal 
immigration was never seriously considered by Congress or the 
administration until very recently.
    Instead, by winking at businesses that hired illegal 
immigrants, the Federal Government sent a clear signal to those 
in other countries: if you can make it into our country, you 
will have no trouble qualifying for employment.
    So it is no surprise. People have been coming at such high 
levels that our border controls simply cannot stop them. Unless 
we reduce the incentive to come here illegally, increasing our 
Border Patrol will have little impact on the number of people 
who enter legally. We will waste the money spent, jeopardize 
lives, and deceive the public with a false promise of security 
that everyone knows we cannot deliver.
    Second, we must increase lawful opportunity to overseas 
workers. Science, medicine, education, and modern industries 
today are growing faster overseas than here in the United 
States, reversing a centuries-long advantage that we have 
enjoyed.
    Baby boomers are starting to retire. America's birth rate 
continues to slow and we do not have enough workers to pay for 
our retirement benefits. The economics are very simple: we need 
more workers than we have. That means we must increase the 
number of visas for overseas manual workers who help provide 
the essential muscle and elbow grease we need to keep our 
economy running.
    It also means we must increase the number of visas for 
immigrant engineers, doctors, scientists, and other 
professionally trained workers, the innovators of tomorrow's 
economy, and we must give all of them, as well as foreign 
students, the opportunity to earn permanent status so they can 
put their knowledge and entrepreneurial spirit to use for our 
country.
    Why should we not reap the benefits of the skills foreign 
students have obtained here? If we do not allow them in, or if 
we force them to go home, we will be sending the future of 
science and the jobs of tomorrow with them.
    Recent studies put lie to the old argument that immigrants 
take jobs away from native-born Americans and significantly 
depress wages. Quite the contrary. They are what makes our 
economy work. In most cases, those here illegally are filling 
low-wage, low-skilled jobs that Americans just simply do not 
want.
    Global economic forces are responsible for the declines in 
the real wages of unskilled workers and occur regardless of 
whether immigrants are present in a community.
    Moreover, the total economic effect of any slight wage 
increased produced by immigration is more than offset by 
substantial increases in productivity. To keep businesses and 
people investing in America, we need to ensure that we have 
workers for all types of jobs.
    Third, we must reduce illegal access to our borders, which, 
as I have said, is a matter of national urgent security. As 
President Bush recognizes, in some areas, particularly in 
border towns, additional fencing may be required; in open 
desert areas, a virtual wall created through sensors or cameras 
would be far more effective.
    However, even after we double the number of border agents, 
they will remain overwhelmed by the flood of people attempting 
to enter illegally. Only by embracing the first two principles, 
reducing incentives and increasing lawful opportunity, will 
border security become a manageable task.
    Members of the House of Representatives want to control the 
borders. So do we all. But by believing that increasing Border 
Patrol alone will achieve that goal is either naive and short-
sighted, or cynical and duplicitous. No wall or army can stop 
hundreds of thousands of people each year.
    Fourth, and finally, we need to get real about the people 
who are now living in this country illegally, in many cases 
raising families and paying taxes. The idea of deporting 11 or 
12 million people, about as many as live in the entire State of 
Pennsylvania, is pure fantasy.
    Even if we wanted to, it would be physically impossible to 
carry out. If we attempted it, it would be perhaps the largest 
round-up and deportation in world history. The social and 
economic consequences would be devastating to this country.
    Let me ask you, do you really want to spend billions of 
dollars on a round-up and deportation program that would split 
families in two, only to have the very same people, and 
millions more, illegally enter our country again? Of course 
not. America is better than that, and smarter than that.
    That is why I do not believe that the American people will 
support the short-sighted approach to this issue taken by the 
House which would make felons of illegal immigrants.
    The Senate approach, the tiered approach, I think is flawed 
as well. Requiring some people to report to deport through 
guest worker programs, while leaving their spouses, children, 
and mortgages behind is no less naive than thinking we can 
deport all 12 million people. What incentive would people have 
to show up?
    In fact, this approach would just create an enormous 
incentive for fraud, and there can be little doubt that the 
black market for false documentation would remain strong and 
real enforcement impossible.
    There is only one practical solution, and it is a solution 
that respects the history of our Nation: offer those already 
here the opportunity to earn permanent status and keep their 
families together.
    For decades, the Federal Government has tacitly welcomed 
them into the work force, collecting their income and Social 
Security taxes, which about two-thirds of undocumented workers 
pay, and benefited immeasurably from their contributions to our 
country.
    Now, instead of pointing fingers about the past, let us 
accept the present for what it is by bringing people out of the 
shadows and focus on the future of casting those shadows aside 
permanently.
    As the debate continues between the House and the Senate, I 
urge Members of Congress to move past the superficial debate 
over the definition of amnesty. Buzz words and polls should not 
dictate national policies. We need Congress to lead from the 
front, not the back.
    That means adopting a solution that is enforceable, 
sustainable, and compassionate, and that enables the American 
economy to thrive in the 21st century. Perhaps now, more than 
ever, it is time to vote our future rather than pander to 
rabble rousers and parochial fears.
    Only by embracing all four of these principles I have 
outlined today can we achieve these goals. If one principle is 
abandoned, we will be no better off than we were after the 
passage of the law in 1986.
    A successful solution to our border problems cannot rest on 
a wall alone. It must be built on a foundation strong enough to 
support it, and to support our continued economic growth and 
prosperity.
    Before I close, let me add just one more thing, Mr. 
Chairman, if I may. There is one more crucially important issue 
that should be raised about our policies toward those that are 
here illegally.
    Members of the House of Representatives have recently 
attached an amendment to the appropriations bill that would 
deny all immigrant Homeland Security and Department of Justice 
funding to any city or State deemed in violation of the 1996 
Federal law.
    That law prohibits restrictions on any local and State 
employee from contacting the Federal Government about someone's 
immigration status. New York City cooperates fully with the 
Federal Government when an illegal immigrant commits a criminal 
act, but our city's social services' health and education 
policies are not designed to facilitate the deportation of 
otherwise law- abiding residents.
    Our general policy in this area protects the 
confidentiality of law-abiding immigrants, regardless of their 
status, when they report a crime or visit a hospital or send 
their children to school. Without those protections, all of our 
residents would be less safe and more likely to be at risk for 
disease.
    Do we really want people who could have information about 
criminals, including potential terrorists, to be afraid to go 
to the police? Do we really want people with contagious 
diseases not to seek medical treatment? Do we really want 
people not to get vaccinated against communicable diseases?
    Our policy is carefully crafted to comply with the 1996 
law, but some Members of Congress just do not like it. They 
have asked the Department of Justice to review all local and 
State policies concerning this issue. We believe the review 
will validate our approach.
    But whatever the findings, let me be perfectly clear: the 
way to deal with this issue is not by reducing the safety and 
security of our Nation. There is already much, too much 
politics in Homeland Security funding, which is one reason why 
New York City has consistently been short-changed of the money 
we need to protect our city, but this one would really take the 
cake.
    If Congress attempts to cutoff all of our Homeland Security 
funding, not to mention Department of Justice funding for many 
other essential programs, I promise you, you will have one heck 
of a battle on your hands.
    We are not going to let Congress cut and run from New York 
City, nor can our Nation afford to do it. New York City remains 
the top terrorist target, and if Congress passes this amendment 
no one will cheer louder than Al- Qaeda.
    Let me close by thanking you, along with the President, for 
taking this issue of immigration up. I really do urge all the 
members of your Committee to reject the false promises of easy 
answers and have the courage to do something that really is 
necessary and that will work, even if it means to standing up 
to businesses and those with nativist impulses to ensure our 
Nation's security and our Nation's prosperity.
    Thank you very much.
    Chairman Specter. Thank you very much, Mayor Bloomberg.
    [The prepared statement of Mayor Bloomberg appears as a 
submission for the record.]
    Chairman Specter. We now turn to Philadelphia Police 
Commissioner Sylvester Johnson, a 41-year veteran of the 
Philadelphia Police Department. He joined law enforcement while 
I was District Attorney of Philadelphia a few years back, and 
has been Commissioner since January 4, 2002. He is the 
recipient of many distinguished awards for valor and 
competency. He was a key member of the hostage negotiating 
team.
    Thank you very much for joining us, Commissioner, and we 
look forward to your testimony.

   STATEMENT OF COMMISSIONER SYLVESTER JOHNSON, PHILADELPHIA 
         POLICE DEPARTMENT, PHILADELPHIA, PENNSYLVANIA

    Commissioner Johnson. Thank you very much Senator.
    First, I would like to say I agree with everything that 
Mayor Bloomberg said. In addition to that, I just have a couple 
more things to add.
    Good morning, Senator Specter and Senator Kennedy. Thank 
you for inviting me here to speak today.
    Illegal immigration is a serious problem. However, local 
law enforcement is not in a position to successfully enforce 
immigration laws and should not be compelled to be the primary 
enforcer of these Federal regulations.
    The Philadelphia Police Department's first concern is 
public safety. The police need the community's trust and 
cooperation to fight crime, and want to keep a good 
relationship with all members of the immigrant community. If an 
undocumented person is a victim or a witness of a crime, we 
want them to come forward. We don't want them to avoid local 
police for fear of deportation.
    Of course, we will investigate anyone involved in the 
commission of a crime, regardless of immigration status. We 
enjoy a good relationship with the Federal agency that enforces 
immigration laws, and that is one way to ensure that illegal 
immigrants involved in criminal activity do not slip through 
either system.
    Additionally, we do not have the resources needed to 
enforce immigration laws. Overall, crime is down slightly. 
However, like many cities, we are dealing with an increase in 
shootings and murders, and a substantial decrease in Federal 
and other funding.
    Mandatory immigration enforcement would overwhelm police 
resources and that of other city agencies. No city should be 
punished for not enforcing immigration laws. By reducing funds, 
we will be affecting the public safety functions of all city 
agencies.
    There are also a number of legal aspects to consider. Local 
police primarily enforce the criminal provisions of State law. 
States laws, and sometimes local ordinances, mandate our 
responsibilities and limit our conduct. In States with more 
restrictive laws, local police may be limited in their action 
against illegal immigrants. In these cases, Federal enforcement 
would be more effective.
    Immigration law is complex. The civil and criminal aspects 
are often difficult to distinguish. A tremendous amount of time 
would be needed to train officers about this area. Keeping 
officers off the streets for long periods of time for training, 
when violence is increasing could be disastrous. As I have 
often said, we will not break the law to enforce the law.
    As an officer, I promised to uphold the Constitution, and 
will keep my oath. Civil suits have already been brought 
against local police in the United States that had assisted in 
enforcing immigration laws. Federal and State authority to 
enforce such laws would need to be clarified.
    The Major City Chiefs, an organization consisting of fifty-
seven chiefs of police, researched this issue and suggested 
several possible solutions. These include securing our borders, 
enforcing existing laws, prohibiting the hiring of illegal 
immigrants, consulting and sharing intelligence with local 
police, having local law enforcement continue to commit 
resources against all criminal violators, clarification of 
authority allowing local police to enforce immigration law, 
limited liability for such, removing civil immigration 
detainees from the NCIC system, and incentive-based system of 
full Federal funding instead of reductions or a shifting 
approach would also be beneficial.
    Local law enforcement is the first line of defense in 
protecting our communities. Atrocities can occur when people 
put nationality, race, and ethnicity before humanity. The 
Philadelphia Police Department will do everything within our 
authority to protect and serve anyone who enters our city.
    Illegal immigration is a serious problem. It is in 
everyone's interests to allow those with the expertise, 
experience, and resources to concentrate on the legal issues. 
We all benefit when local law enforcement can maintain a good 
relationship with the immigrant community, allowing us to 
protect and serve the populace.
    In addition to that, law enforcement, by itself, will never 
change the quality of life. We will never arrest the way out of 
the problem. International terrorism is a shame, but domestic 
terrorism is just as bad. Last year, we lost 380 people in the 
city of Philadelphia. We need our resources to combine in an 
effort to decrease crime.
    Thank you.
    Chairman Specter. Thank you very much, Commissioner.
    [The prepared statement of Commissioner Johnson appears as 
a submission for the record.]
    Chairman Specter. Our next witness is Mayor Louis Barletta, 
from Hazelton, Pennsylvania. He is marked as one of the 10 
outstanding mayors in the State. He was elected to the position 
in the year 2000, after having served on Hazelton's city 
council, and was reelected in 2004.
    Thank you very much for joining us, Mayor Barletta.
    We look forward to your testimony.

  STATEMENT OF HON. LOUIS BARLETTA, MAYOR, CITY OF HAZELTON, 
                     HAZELTON, PENNSYLVANIA

    Mayor Barletta. Good morning, Mr. Chairman and
    Senator Kennedy. Thank you for your invitation to be here 
today so I can address an extremely important issue facing our 
city: illegal immigration.
    Late on the night of May 10, 2006, a 29-year-old Hazelton 
resident, Derrick Kishline, was standing near his truck a few 
blocks from the heart of our downtown. Two men approached him 
and shot him in the face from about a foot away. Kishline fell 
to the pavement and died.
    The next day, a 14-year-old boy took out a gun and started 
firing shots in a crowded city playground, a place I consider 
sacred ground. Both of these shocking incidents forced Hazelton 
Police Department detectives and offers to work more than 36 
straight hours to solve these crimes.
    Four were arrested in the murder case; all four are illegal 
immigrants. The teenaged gunman was caught and taken into 
custody while he was carrying 10 bags of crack cocaine. He was 
also an illegal immigrant.
    A few days later, we had a Federal drug bust in Hazelton. 
Some of those arrested were also illegal immigrants. We have 
seen a dramatic increase in gang- style graffiti, some of which 
has included threats to kill police officers.
    This graffiti has marred an award-winning redevelopment 
project that replaced vacant factories with family homes. Those 
homes and families are threatened by hoodlums who do not 
respect people or their property. As the mayor, I have had 
enough.
    Hazelton is a small city, an all-American city. We are in 
the heart of Pennsylvania's anthracite coal region, so we have 
gone through hard times in the past.
    As for our population, our city has exploded from about 
23,000 people in the last Census to just over 31,000, according 
to recent estimates. This is more than a 30 percent increase in 
just a few years. We have struggled to increase our services to 
cope with that growth. Our annual budget is just $7 million.
    For decades, we might have had a murder once every 7 years, 
then people would spend the next 6 years talking about it. But 
the shocking death of Derrick Kishline was the second murder in 
the city within eight months. Hazelton's residents have been 
shaken by these, and other high-profile crimes.
    The 31 officers of our police department have been 
stretched to the limit. They have spent hundreds of hours, and 
the city has spent thousands of dollars, investigating crimes 
committed by illegal immigrants. Illegal immigration is a drain 
on Hazelton's limited resources.
    Every domestic incident, every traffic accident, every 
noise complaint, each time we send our police department, fire 
department, or Code Enforcement Office to respond, it costs 
taxpayer dollars.
    Every minute spent by a police officer, fire fighter, or 
city official in tackling a problem created by an illegal 
immigrant is a minute they are not serving the legal population 
of my city.
    We are taking action. I proposed, and the city council 
tentatively approved, the Illegal Immigration Relief Act. This 
act has three components. One would punish companies that hire 
illegal immigrants by denying them permits, making it harder 
for them to renew permits and forcing the loss of city 
business.
    The second component would hold landlords accountable. 
Landlords who knowingly rent to illegal immigrants may be fined 
$1,000 for every illegal immigrant occupying their properties. 
A final part of the ordinance makes English the language of 
official city business in Hazelton.
    Let me be clear. This ordinance is intended to make 
Hazelton one of the most difficult places in the United States 
for illegal immigrants. Only legal immigrants are welcome in 
Hazelton. Illegal immigrants are not welcome because they are 
draining our limited resources. My city has taken the first 
step in securing our future, but we need help.
    One of the men who allegedly killed Derrick Kishline had 
been arrested eight times before. He spent more than a year and 
a half in jail on various charges, and then he came to 
Hazelton. What is particularly troubling is that he, as an 
illegal immigrant, should never have been in the country in the 
first place, let alone in Hazelton, Pennsylvania.
    If others had done their jobs by keeping this murderous 
thug and his cohorts out of the country, out of Hazelton, 
Derrick Kishline may still be alive today and Hazelton might 
not have been forced to take the dramatic steps we are taking 
now. We deal with illegal immigration every single day.
    In Hazelton is not some abstract debate about walls and 
amnesty, but it is a tangible, very real problem. This is an 
issue that will affect every city, borough, and township in 
Pennsylvania, and the United States, if it does not already. 
Based on the response we have received in Hazelton, I believe 
it has.
    Chairman Specter, if I may have just a few more seconds.
    Chairman Specter. Proceed, Mayor Barletta.
    Mayor Barletta. Since I proposed this measure in mid-June, 
we have been inundated with more than 7,000 e- mails from 
people across the country. We have received, overwhelmingly, 
positive feedback from literally every State, from Alaska and 
Hawaii, to Maine, our southern border States, and even from our 
soldiers fighting for our freedom overseas.
    We have also sent copies of our ordinance to municipalities 
around the country. Several townships and boroughs around 
Hazelton have already begun implementing their own versions.
    Communities are crying out for relief. Like every other 
elected official in the Nation, I took an oath of office to 
protect my citizens. The measure I proposed seeks to protect 
the people of Hazelton.
    Cities like Hazelton are the lifeblood of America. We are 
buckling under the strain of illegal immigration, and we need 
help. If we cannot get it from outside our borders, then we 
must, and we will, take steps from within to secure our future.
    Thank you for your time.
    Chairman Specter. Thank you very much, Mayor Barletta.
    We now move to the portion of our hearing will there will 
be questions from Senator Kennedy and myself. We will limit our 
questioning rounds to 5 minutes; we have a very large second 
panel.
    Mayor Bloomberg, you heard Mayor Barletta describe the 
problems of crime in his city. Obviously, in New York City you 
could testify to many, many more such incidents in a city the 
size of New York. It is understandable, as you have testified, 
about not wanting to report crime victims who may not be here 
legally, or people who are securing indispensable medical help.
    But what balance is there, and what role do you see, if 
any, for New York public officials, the police department, when 
finding immigrants who are the criminal element, charged with 
serious crimes, with substantial evidence? What role do you 
see, if any, for reporting them to the immigration officials 
for deportation?
    Mayor Bloomberg. Well, I do not know what Hazelton, 
Pennsylvania's experience has been. Our experience in New York 
is, when you look at who commits crimes, yes, some crimes are 
committed by illegal immigrants and lots of crimes are 
committed by people who are third- or fourth-generation 
Americans. That is just the truth of the matter.
    I am sympathetic to Mayor Barletta, but I think that the 
only way we are going to solve the problem is to have the ID 
card that is non-forgeable, to do exactly what he is doing in 
his city, hold employers meaningfully accountable so that they 
do not go and----
    Chairman Specter. But when you apprehend someone who is 
charged with a crime, with substantial evidence----
    Mayor Bloomberg. If you are arrested in New York City for a 
crime, we check your immigration status and do followup with 
the INS. What we do not do, is we do not check your immigration 
status if you show up at a hospital needing help, if you send 
your kid to school.
    The truth of the matter is, in New York City--and I think 
it is true nationally--75 percent of all of the undocumented 
pay taxes, pay Social Security, and do not take any of the 
benefits.
    Chairman Specter. Mayor Bloomberg, let me move back to
    Mayor Barletta. There is a limited amount of time here.
    Chairman Specter. Mayor Barletta, you talk about holding 
landlords responsible. Is that going to turn us into a Nation 
of informants? How far should you go in identifying 
undocumented immigrants if they are seeking something which is 
lawful or, as Mayor Bloomberg points out, getting medical care?
    Mayor Barletta. In the city of Hazelton, the greatest asset 
we have, Senator Specter, is the quality of life. We are small-
town USA. People that live in Hazelton live there because they 
want their children to be able to play on the playgrounds.
    They do not want to be terrified by some of the high- 
profile crimes that we have seen in our city, mainly by people 
who do not belong in the country. We are going to relieve the 
burden from the landlords and take it upon the city to help 
them with the documentation. I believe this is what cities such 
as Hazelton have to do.
    The debate that I have been following, both in the Senate 
and the House, addresses mainly our southern border and guest 
worker programs. I can assure you, the individuals I talked 
about today are not working anywhere and they are not entering, 
I believe, through the southern border.
    Chairman Specter. Commissioner Johnson, what about the 
Philadelphia Police Department, where you find someone who is 
charged with a crime with substantial evidence, do you turn 
them over to INS where they are undocumented immigrants?
    Commissioner Johnson. Yes. We do the same thing that New 
York does. Our concern is for people who are a victim of a 
crime, people who are witnesses to a crime. Some of our best 
intelligence comes from people in the immigrant community. I 
think that once we start enforcing laws to the point that the 
first thing we ask a person who has been victim is, show me 
your green card, before they share the fact that they have been 
victimized we will cause more harm than good. The Major City 
Chiefs discussed these points, fifty-six police chiefs 
throughout the entire Nation. In order to become a Major City 
Chief, you have to have a population of 500,000. We debated 
this constantly and we came to the conclusion that law 
enforcement took years and years to form relationships with the 
immigrant community. Here in the city of Philadelphia, we have 
the Asian Commissioners Advisory Council, the African American 
Advisory Council, and other groups.
    Once we start enforcing immigration law, then we are going 
to lose that contact. We are going to lose that response from 
the immigrant community because they are not going to contact 
us. Nor will they contact us if they have information about 
other people, about other violence-type issues, or even with 
national security. So we are very concerned about that.
    Our other concern was that if we did not follow this as 
Majority City Chiefs, then our entire city would be punished, 
from the health department to others. You know, law 
enforcement, by itself, is never going to change the quality of 
life. It really has to be a holistic-type approach with the 
health department and other agencies in this city. It is about 
public security, public health.
    So again, as far as law enforcement is concerned, I said, 
again, we had 380 homicides last year. We also had 1,800 
shootings here in the city of Philadelphia. I can tell you, 
less than 1 percent were illegal immigrants.
    Chairman Specter. Thank you very much, Commissioner.
    One final question, after my red light is on. Mayor 
Bloomberg, if you did not have undocumented immigrants working 
in New York City in the hotels, restaurants, and hospitals as 
domestics, what would the impact be on your city's economy?
    Mayor Bloomberg. It would be devastating for our city. We 
estimate there are 500,000 undocumented living in a city of 8.1 
million people. A lot of them provide the elbow grease to make 
the traditional industries you have talked about, whether it is 
the tourism-related industries of transportation, food and 
beverage, it is home health care, or it is providing a lot of 
the cleaning services and driving taxicabs and those kinds of 
things, but the truth of the matter is, our undocumented go all 
the way up the ladder to senior people in lots of different 
institutions.
    It is just, without them, the city could not survive in the 
ways it is. We would not have the tax base for those that need 
services and we would not have the compassionate kinds of 
government that I think we have provided.
    I was listening to Mayor Barletta talk about the size of 
Hazelton. It reminded me that New York City may have 8.1 
million people, but we have communities, hundreds of them, of 
the same size that Hazelton, Pennsylvania is, and our people 
want to be able to go out in their local communities, to parks, 
to schools, and on the streets and be safe. In fact, they are 
safe, and we have been able to do that.
    The reason we have done it, is we have the world's greatest 
police department--no offense intended.
    [Laughter.]
    You can have the second.
    [Laughter.]
    But that is where the tax base comes from to provide that. 
The immigrant community in New York City has helped us, it has 
not hurt us. It is New York City's great strength rather than 
being a weakness.
    Chairman Specter. I notice Mayor Barletta raising his hand. 
No question to you, Mayor Barletta, but if you want to comment, 
even though I am over time, you may.
    Mayor Barletta. Thank you. The point I want to make today 
is the opposite point of view, such as big cities, how they are 
dealing with it. In small-town America, we have very limited 
resources to provide services to people, a very small amount of 
money.
    And when I see those resources being used where they should 
not be, it is concerning and it does affect the quality of 
life. Our budget, as I said, is minuscule. We are spending the 
little amount that I do have chasing illegal immigrants around 
the city of Hazelton.
    Chairman Specter. Thank you very much, Mayor Barletta.
    Senator Kennedy?
    Senator Kennedy. Thank you. Thank you very much.
    Mayor Barletta, you agreed that we, the Federal Government, 
have some responsibility about those bad actors as well whether 
they come and settle in your community or they settle in New 
York. Would you agree with that?
    Mayor Barletta. Absolutely.
    Senator Kennedy. And we really have not done all the things 
that we should have done. Would you not agree with that?
    Mayor Barletta. I am dealing with it today.
    Senator Kennedy. So what happens is, if we have a broken 
system, which I think all of us understand, then people are 
left to try and deal with it in whatever way they feel they 
have to deal with it. You stated your views about how to deal 
with this for your own community.
    Would you not agree that if we were able to stop the bad 
actors from coming in here, that that would be useful in terms 
of your own community? If we were able to do this in a national 
way, in a way that could be meaningful--it may take some time--
would that not help small towns and communities as well?
    Mayor Barletta. Yes, Senator Kennedy, if we secured all 
ports of entry in the United States, not just the southern 
border. The actors that I am talking about are not working in 
factories or in plants or looking for a better life, they are 
dealing drugs and terrorizing good people in our community.
    Senator Kennedy. It is also not just the borders, is it, 
though?
    Mayor Barletta. No.
    Senator Kennedy. Because 40 percent of those that are here 
undocumented just overstayed their visas, coming here 
legitimately, becoming lost and getting into the community.
    So we have to do something about those individuals that 
come here legally and then just become a part of the 
undocumented, and those that come across the border illegally. 
We also have to deal with this in a comprehensive way, would 
you say, or not?
    Mayor Barletta. I agree. I also believe that it will take 
local municipalities to deal with it. I know the debate is 
whether this is a Federal issue or a local issue. I believe it 
is a local issue, because we do deal with it every day.
    Senator Kennedy. Well, it certainly would be a local issue 
because you get the impact of bad actors coming in there. But, 
it is perhaps something needed at the Federal level, because we 
have the responsibility of securing our borders and enacting 
immigration reform.
    I think that if we were able to get that done, and have it 
done right and done well, then many of the smaller communities 
might not have the problem that you have. We all understand we 
have a problem.
    Mayor Bloomberg, your testimony, and also the 
Commissioner's testimony, is enormously important and 
significant. You are the mayor of the city that has been 
targeted by terrorists, and I think most would agree that it is 
a city that is targeted repeatedly. It can be New York City, or 
its subway, or maybe the large cities in Pennsylvania or my 
city of Boston.
    So there really is this National debate about what local 
law enforcement officials ought to do in this situation, and it 
is a hotly contested issue and question. Senator Specter and I 
saw it on the mark-up of our committee, which was divided, and 
we saw it on the floor of the U.S. Senate.
    So you and the Commissioner expressed your view with 
clarity and passion, that the most effective way of dealing 
with the issues of enforcement in terms of national security, 
is by intelligence gathering. This is very significant and if 
you can just talk about this for a minute.
    Let me just mention one thing. If States want to train 
people on the enforcement of civil immigration laws, the 
Federal Government provides some training for that.
    The State of Alabama has done that training, and we have 
the results. At least one story shows that they found that of 
all the drivers that were pulled over in the State of Alabama, 
50 percent of them were Latinos, in a State that only has 5 
percent Latino population.
    They drew the conclusion, at least in this article that it 
lent itself to sort of racial profiling. I would ask, Mr. 
Chairman, that this June 24th, 2006 Boston Globe article be 
made a part of the record--
    That aside, how do you respond, as a person that has the 
prime responsibility, obviously with the Department of Homeland 
Security, for the security of your community?
    In terms of intelligence gathering, as the mayor, what have 
you found are the advantages or the disadvantages of being able 
to work with the community in order to provide more security 
for the city of New York, or for Philadelphia? From your 
perspective, don't you think law enforcement ought to be 
looking for criminals rather than immigration violators?
    Mayor Bloomberg. Well, Senator, at least in terms of New 
York City, I was looking around this audience and I do not see 
anybody that I do not think looks like an immigrant, including 
up here on this stage. We all look like immigrants, and that is 
one of the problems. You do not know who to go after.
    So, you have to have a policy that does not profile, 
because it would not work and it is also wrong, and you have to 
have something that will allow companies and the mayor of 
Hazelton to know with certainty who is here legally and who is 
not.
    We talk about security. I have talked to some of the 1,000 
police officers that we have dedicated to intelligence and 
counter-terrorism in New York City, and a number of them think 
that if Al-Qaeda was going to send somebody here, they are more 
likely to come across our northern border than our southern 
border.
    So when you talk about securing borders, I am never sure 
what you are really talking about. We have coastlines of a 
couple thousand miles, both on the East Coast and the West 
Coast.
    If you are going to build a real fence around this country, 
the order of magnitude of funds and troops that you would need 
is something that, if anybody stopped to think about it, they 
would realize, that is just not possible.
    The good news is that we found, in New York City, if you 
enforce the laws fairly, you have exactly the same problem with 
documented and undocumented, with people that have been here 
forever and people who have just arrived. There are lots of 
reasons why people commit crimes. Where they come from does not 
happen to appear to be one of them.
    Senator Kennedy. My time is up.
    Commissioner, would you say just a brief word?
    Commissioner Johnson. I have my lieutenant in charge, one 
of our Intelligence people, right here today. We talked prior 
to coming here. The intelligence that is coming from the 
immigrant community is very, very important.
    The other thing is if a person is victimized, we do not 
want them to worry that we are going to profile them and 
question them about their green card. We need their help.
    I look around the room also. I said I have an Asian 
Advisory Council, and there are about 40 of them sitting in 
this room today, or at least there is a large number of them 
here today. It took us years to build that type of 
relationship. I think once we start enforcing immigration laws, 
we are going to lose that relationship within a matter of 
weeks.
    Senator Kennedy. Thank you, Mr. Chairman. I thank the panel 
very much.
    Chairman Specter. Thank you very much, Senator Kennedy.
    Thank you, Mayor Bloomberg, Mayor Barletta, and 
Commissioner Johnson. We very much appreciate your coming in.
    We now turn to our second panel. Mr. Ronald Bird, 
Representative Art Hershey, Ms. Eileen Connelly, Reverend Louis 
Cortes, Mr. Eichenlaub, and Ms. Rossi.
    Would you all please step forward while we thank our 
departing panelists?
    [Applause.]
    [Whereupon, at 11:15 a.m. the Committee was recessed and 
resumed back on the record at 11:22 a.m.]
    Chairman Specter. Our hearing will resume. Our first 
witness is a representative from the U.S. Department of Labor, 
Mr. Ronald Bird, who we thank the Secretary of Labor, the 
distinguished Secretary Elaine Chao, for sending you here, Mr. 
Bird.
    He is the Chief Economist and Director of the Office of 
Economic Policy and Analysis. His work includes market data and 
preparation of materials in support for briefings on employment 
status and general economic conditions.
    He has a Ph.D. in Economics from the University of North 
Carolina, and has a Bachelor's degree from Huntington College, 
Montgomery, Alabama.
    Thank you for coming in today, Mr. Bird. We look forward to 
your testimony.

STATEMENT OF RONALD BIRD, CHIEF ECONOMIST AND DIRECTOR, OFFICE 
     OF ECONOMIC POLICY AND ANALYSIS, DEPARTMENT OF LABOR, 
                        WASHINGTON, D.C.

    Mr. Bird. Thank you, Senator Specter, Senator Kennedy. I am 
pleased to be here and to provide you with some information 
about the demographics of the labor force, and recent trends.
    I have prepared a statement with tables and charts which 
has been provided to you, and I will briefly summarize what I 
brought with me. I would be pleased to answer any questions you 
have.
    The American labor force is large. At 151 million in May of 
2006, the U.S. labor force was the third-largest among the 
nations of the world, second behind only China and India.
    The U.S. labor force is diverse. The American labor force 
provides opportunity to people from a wider array of races, 
ethnic backgrounds, and cultures than any other nation.
    The U.S. labor market is strong. Unemployment in May of 
2006 was a low 4.6 percent, the lowest since July of 2001. We 
have enjoyed 33 consecutive months of job growth, with payroll 
employment growing by over 5.3 million since the post-recession 
turn-around in 2003.
    Unemployment today is below historical averages. Since 
1948, the unemployment rate has averaged 5.6 percent, compared 
to today's 4.6 percent. Today's low unemployment rate is an 
important factor to consider and it is real.
    Unemployment is not low because potential workers are 
sitting on the sidelines. Discouraged workers and others at the 
labor force margins, those not actively looking for work, are 
also low.
    We are facing both the challenge and the opportunity of a 
tight labor market. Employers are challenged to find the 
workers they need, and those who want to work enjoy the 
opportunity to find good jobs.
    The U.S. labor force grew significantly over the past half 
century. Between 1948 and 2005, the labor force increased from 
60.6 million to 149.3 million, a 146 percent increase that saw 
88.7 million new workers absorbed into the economy.
    The 1.1 percent average annual labor force growth rate of 
the 1950's increased in the 1960's to 1.7 percent, then to 2.7 
percent per year labor force growth in the 1970's.
    This remarkable increase in the annual rate of labor force 
growth in the 1970's reflected two major components: native 
population growth, as the baby boom generation--my generation--
matured and entered the labor force, and also increased labor 
force participation by women.
    The annual average labor force growth rate then began 
slowing in the 1980's to 1.7 percent per year as population 
growth slowed, but still maintained a fairly high rate of 
growth, at 1.7 percent, because the labor force participation 
of women was still continuing to rise.
    Since 1995, labor force growth has averaged even lower, 1.2 
percent, and BLS projections for 2006 through 2014 forecast 
continuing declines in the rate of labor force growth, 1.1 
percent in 2006, down to 0.8 percent in 2014.
    Slower labor force growth means a tighter labor market, 
fewer new workers to fill new jobs and vacancies. This will be 
a good labor market for job seekers and a challenge for 
employers seeking to fill new job openings and to fill 
vacancies as baby boomers retire.
    I might mention, in the latest data on job openings from 
the BLS Job Opening Survey, at the end of April, there were 4.1 
million unfilled vacancies in the United States.
    The increase in the labor force participation of women over 
the past half century is a particularly noteworthy fact. If the 
female labor force participation rate had remained at the 1948 
level over the past half century, the labor force today would 
be 31 million less than it actually is.
    It is a sign of the strength, I think, of our economy that 
we absorbed the influx of 31 million new workers with relative 
ease. Indeed, I think we are stronger and more productive 
because of increased labor force participation of women.
    Immigrants are also a significant and growing component of 
the U.S. labor force. In 2005, the 22 million foreign-born 
workers comprised 14.8 percent of the U.S. labor force.
    The demographic characteristics of the foreign-born labor 
force differ in many respects from the native born: they are 
more likely to be men, they are younger, they are more likely 
to be Hispanic or Asian, and they are less educated, on 
average, than the native-born labor force.
    The foreign-born labor force has increased by 1.8 million 
since 2002. Foreign-born workers accounted for almost 40 
percent of the 4.5 million increase in the labor force from 
2000 to 2005.
    The projected 1 percent labor force growth over the next 10 
years will be below the average labor force growth of the 
1950's, and well below the 2.7 percent average annual labor 
force growth of the 1970's, even including this large component 
of projected foreign-born workers in that total.
    At 40 percent almost of labor force growth since 2002, 
immigrants certainly comprise an important component of overall 
labor force growth, and of our capacity to maintain growing 
national output.
    I hope this is helpful, and I would be happy to answer your 
questions.
    Chairman Specter. Thank you very much, Mr. Bird.
    [The prepared statement of Mr. Bird appears as a submission 
for the record.]
    Chairman Specter. Our next witness is State Representative 
Art Hershey. He represents Chester County. He was first elected 
to the House of Representatives in 1982, and is Chairman of the 
Pennsylvania House Agriculture and Rural Affairs Committee.
    He has hands-on experience in dairy operation in 
Cockerville, Pennsylvania. He has an extensive educational 
background from Penn State.
    Thank you very much for being with us today,Representative 
Hershey. The floor is yours.

    STATEMENT OF HON. ARTHUR HERSHEY, PENNSYLVANIA HOUSE OF 
  REPRESENTATIVES, 13th LEGISLATIVE DISTRICT, CHESTER COUNTY, 
                          PENNSYLVANIA

    Representative Hershey. Chairman Specter, Senator Kennedy, 
thank you for this opportunity to testify.
    Would you all please step forward while we thank our My 
name is Art Hershey and I represent historic Chester County in 
the Pennsylvania House of Representatives. I am also the 
Chairman of our House Agricultural and Rural Affairs Committee.
    Labor-intense agriculture and value-added industries, like 
food processing, are very important to Pennsylvania. Growing 
industries, like mushrooms, fruit, vegetables, nursery and 
greenhouse, and dairy require large work forces. In fact, 
Pennsylvania ranks tenth in the Nation in the size of our hired 
farm worker payroll.
    Our specialty, agriculture, is much more reliant on labor 
than the national average. In the end, we are talking about 
more than just the jobs of farm workers. These industries 
create thousands of good-paying jobs for Pennsylvanians that 
would cease to exist if we did not have labor on our farms.
    I am talking about jobs providing inputs and supplies, 
equipment, marketing, packaging, processing, transportation, 
lending and insurance. Economists tell us there are three to 
four such jobs created for every single farm worker.
    As Agriculture Committee Chairman, I know and care about 
all these industries in the Commonwealth. My own background is 
in the dairy industry. Even highly mechanized dairies have a 
significant need for labor and rely heavily on the immigrant 
labor force. We need workers year-round. Dairy falls through 
the cracks of all the existing programs which are for seasonal 
workers only, or for non-agricultural workers.
    Who makes up our farm labor force? In 2002, Pennsylvania 
farmers employed 67,672 hired laborers; 26,066 were employed 
150 days or longer, with the rest in more seasonal jobs.
    In 1998, a Department of Labor survey showed that 52 
percent of farm workers self-admitted they lacked work 
authorization. In a regional northeast breakout including 
Pennsylvania, 65 percent admitted they lacked work 
authorization.
    Also, in 1998, an astounding 99 percent of new entrants 
into the farm labor force lacked proper status. This clearly 
shows we lack domestic labor seeking work on our farms.
    Private estimates suggest that the overall percentage of 
farm workers who lack immigration status is approaching 75 
percent. It is crucial that we solve the agricultural labor 
crisis calmly and wisely.
    The average farm worker wage in Pennsylvania last year was 
$9.76 per hour. This is not a problem of minimum wage work. 
Without immigrant workers, we would not have a labor force. It 
is that simple.
    The industry I really want to talk about today is the 
mushroom industry. Seventy percent of our Nation's commercial 
mushroom farms are in Chester County, in my District. More than 
500 million pounds are grown in the Stat, 60 percent of all 
mushrooms grown in the U.S. Every single one is picked by hand.
    The crop has an annual value of more than 400 million. They 
are estimated to be over 5,000 mushroom farm workers in 
Pennsylvania, most are year-round. The mushroom industry, and 
in fact all the Pennsylvania agricultural industries I have 
mentioned here today, need three things out of immigration 
reform.
    For the long term, they need a guest worker program that 
allows for seasonal and year-round workers. In the near term, 
they need a transition that allows industry to retain its 
trained and experienced work force.
    Finally, employers need to be assured that the 
responsibility of the ultimate verification of a worker's legal 
status lies with the Federal Government, not with the 
employers, and certainly not with the State government, as some 
of my well-meaning colleagues in Harrisburg have recently 
proposed.
    Chairman Specter, the bill that you guided to passage in 
the Senate contains these essential provisions. First, the S. 
2611 overhauls the H2A program. While it does extend it to 
year-round dairy workers, it is a very important provision for 
Pennsylvania.
    It does not extend to year-round mushroom or nursery 
workers. We would prefer that it does. However, we believe that 
these, and other, industries could use the new H2C program for 
positions that do not qualify for H2A.
    On the issue of transition, the bill provides for earned 
legalization for qualifying farm workers willing to pay a fine 
and meet tough conditions. This is not automatic citizenship, 
which some call amnesty. Adjustment of status is crucial to the 
mushroom industry, not to mention other Pennsylvania 
agriculture sectors.
    Some say that we tried legalization for agriculture in 
1986, and they say it failed. The failure of the Reagan-era 
legislation was not the legalization program. Many of the 
mushroom workers who legalized are now the owners, operators, 
and managers of our mushroom farms and many other business 
today.
    Rather, the failure of IRCA was the lack of a long- term 
solution for our farm labor needs. This time, Chairman Specter, 
the Senate bill does it right. The Agriculture Jobs provision 
of the bill addresses both the long term and the need for 
transition.
    In closing, I know Pennsylvania agriculture will lose if 
Congress fails to enact the right reforms in the right way. I 
urge Pennsylvania's delegation in the U.S. House of 
Representatives to tone down their rhetoric and come to the 
negotiating table and produce a final bill that contains these 
critical reforms. Time is, indeed, of essence.
    Thank you for allowing me to speak.
    Chairman Specter. Thank you very much, Representative 
Hershey.
    [The prepared statement of Representative Hershey appears 
as a submission for the record.]
    Chairman Specter. We now turn to Ms. Carol Rossi, Corporate 
Director of Human Resources for Harristown Development 
Corporation, the parent company of The Harrisburg Hotel 
Corporation.
    She has been in the hospitality industry in Pennsylvania 
since 1991. She has a Bachelor's from Florida State, and has 
more than 575 employees in six locations under her direction.
    We appreciate your being with us, Ms. Rossi, and we look 
forward to your testimony.

     STATEMENT OF CAROL ROSSI, CORPORATE DIRECTOR OF HUMAN 
   RESOURCES, THE HARRISBURG HOTEL CORPORATION, HARRISBURG, 
                          PENNSYLVANIA

    Ms. Rossi. Thank you. Thank you, Mr. Chairman and Senator 
Kennedy. Thank you for the opportunity to appear here today.
    My name is Carol Rossi. I am the Corporate Director of 
Human Resources for Harrisburg Hotel Corporation in Harrisburg, 
Pennsylvania, and I am testifying on behalf of the Pennsylvania 
Tourism and Lodging Association, and the Pennsylvania 
Restaurant Association. Both are State- wide associations that 
represent lodging and restaurants in the Commonwealth of 
Pennsylvania.
    I am responsible for all aspects of human resource 
functions for my company's four locations, which include a 
Four-Diamond Hilton in downtown Harrisburg, the Hilton Garden 
Inn in Hershey, Pennsylvania, a brand-new restaurant in 
downtown Harrisburg with 160 seats, and Central Penn Business 
School's Conference Center and student restaurant.
    The majority of my staff's time in human resources, their 
efforts, and most of our budget, is spent directly on the 
recruitment and hiring process to fill approximately 45 job 
postings for our various operations on a weekly basis.
    Our largest operation, the Hilton Harrisburg, currently has 
320 employees and has an average of 25 of those 40 openings on 
its list. This week, as of June 30, we had 36 openings to fill. 
The result of that is, when an employee comes to work, they 
know that they are going to be under-staffed by 10 to 12 
percent, on average, and it is incredibly frustrating for both 
them and for us as the employer.
    For both of us, it means a lot more work, longer hours, 
increased workplace injuries, increased guest complaints, and 
the list goes on. Overtime may be the only welcome benefit that 
that employee may receive, although they would much prefer a 
40-hour work week, more time with their family, and a more 
predictable workload.
    To respond to these demands, we are constantly in the 
recruitment mode. We attend an average of 25 job fairs 
annually, many of which we host ourselves. We spend, at the 
Hilton Harrisburg alone, over $8,000 a year in classified 
newspaper ads and recruitment sources to fill most of our 
openings.
    On many of our recruitment trips, we go to colleges, 
universities, trade schools, and agencies throughout the course 
of a year, but a lot of those dollars that we spend do not give 
us the desired results.
    Recently, as an example, we hosted a job fair this January 
to staff our new restaurant that we opened in downtown 
Harrisburg. We had attractive and costly ads that we placed in 
the local Harrisburg Patriot News to draw in many candidates. 
But, disappointingly, we only saw 20 candidates show up to that 
job fair, 3 of which were qualified to fill the 45 openings at 
our new restaurant.
    Immigrants are fundamental to the success of both the hotel 
and restaurant industries: 1.6 million restaurant workers are 
immigrants; one-quarter of food service managers in 2003 were 
foreign-born, making our industry an industry of opportunity, 
and one that employs one of the most diverse cross-sections of 
people from different cultures and backgrounds.
    We have utilized organizations, such as the CETUSA and CIEE 
to assist us in bringing in seasonal workers to fill our 
numerous openings. Although it is only a short-term fix, it 
allows us the ability to continue to search for more permanent 
solutions in the meanwhile. We have hired foreigners with J1 
visas; the H2B category has been avoided due to complications, 
cost, and the restrictive numbers that are allowed.
    The process for that H2B worker is very complex. A company 
must engage in extensive recruiting of possible U.S. workers, 
be unable to identify an adequate number of U.S. citizens to do 
the work, obtain certification from the Department of Labor 
that we have attempted to recruit American workers without 
success, then obtain certification from the U.S. Department of 
Labor of the need for workers, then receive approval from the 
U.S. Department of Homeland Security to identify qualified 
foreign workers to obtain the approval for the H2B visa from 
the U.S. State Department. As you can see, that is incredibly 
complex, lengthy, costly, and very frustrating.
    What is apparent, is we cannot fill our positions with the 
work force that currently exists. Jobs are growing in the 
hospitality industry and the work force is shrinking. Add to 
that our declining birth rates in the United States and it 
becomes apparent that the math just does not work to allow us 
to move successfully into the future.
    Additionally, our work force is an aging one. Many of these 
jobs are very labor-intensive and physically demanding. Many of 
these jobs are not attractive to American workers.
    As an employer, one of the most absolutely critical tasks 
we handle on a regular basis is verification of identification 
for all new hires to prove eligibility to work legally in the 
United States.
    On numerous occasions we have had to discharge an employee 
after completing the entire employment process because of their 
inability to provide valid ID when they arrived for 
orientation.
    While this is incredibly frustrating, as we have just 
finished spending numerous hours and dollars to get the person 
to this point in the process, we still follow the law to a 
fault: the employee is terminated and the dollars and time we 
merely write off to costs of doing business.
    We are hopeful that an improved system will be put into 
place to effectively assist us with this task. We support and 
understand severe penalties against those who knowingly hire 
undocumented workers, and also support a safe harbor for good-
faith errors, particularly if we are relying on an error-ridden 
government-provided verification system.
    In regards to wages and benefits of our employees, 
regardless of their classification or nationality, they are 
hired at the pay rates linked to a particular position, so a 
housekeeper would receive the same amount of pay whether they 
are a U.S. citizen or whether they are a foreigner legally 
allowed to work here.
    That upholds the same for the benefits that we provide to 
our employees. We have a very attractive benefit policy and it 
is very affordable for our employees and it is very competitive 
with the manufacturing and retail lines, as well as within the 
hospitality industry.
    Our company's goal is to employ workers that are committed 
to serving people. The hospitality business is an admirable 
business, and because our company holds a strong belief in 
professionalism in our industry we are focused on encouraging 
our management to achieve those certifications. Currently, 35 
of our employees have their professional certifications from 
the Educational Institute of the Hotel and Lodging Association.
    While many people come to us without advanced education, EI 
allows us to help them grow during their employment and advance 
in their specific fields with the hospitality business.
    Many of our foreign workers have taken advantage of this 
training and it gives them the confidence to succeed and to 
continue to grow their careers, while advancing their knowledge 
base and job skills.
    Chairman Specter. How much more time will you need, Ms. 
Rossi?
    Ms. Rossi. Just one moment.
    In conclusion--thank you, Mr. Chairman--to succeed, our 
economy desperately needs workers at both ends of the spectrum, 
young and less-skilled as well as more educated and highly 
skilled. Without the flow of immigrant labor, our work force 
will fall short.
    Thank you very much for this opportunity.
    Chairman Specter. Thank you very much, Ms. Rossi.
    [The prepared statement of Ms. Rossi appears as a 
submission for the record.]
    Chairman Specter. Our next witness is Mr. Dan Eichenlaub, 
who has a large, full-scale landscape contracting service in 
western Pennsylvania, and has been there since 1974. He has an 
Engineering degree from Penn State and an Entrepreneurial 
Leadership certificate from the Temper School of Business at 
Carnegie-Mellon.
    Thank you for traveling to Philadelphia today, Mr. 
Eichenlaub. We look forward to your testimony.

   STATEMENT OF DAN EICHENLAUB, PRESIDENT, EICHENLAUB, INC., 
                    PITTSBURGH, PENNSYLVANIA

    Mr. Eichenlaub. It is always a joy to come across the 
State, Mr. Chairman.
    Chairman Specter. Thank you.
    Mr. Eichenlaub. Also, Senator Kennedy, I am glad to be here 
today and to speak to all those in attendance.
    Again, my name is Dan Eichenlaub, and my brothers and I 
started Eichenlaub, Incorporated, a landscape contracting 
company based in Pittsburgh, Pennsylvania back in 1974, and a 
business that we have tried to grow ever since.
    I am part of a Pennsylvania green industry that includes 
landscape contractors, nurseries, and garden centers that 
represent the fastest-growing segment of Pennsylvania 
agriculture, and has about a $5.6 billion impact on the 
Commonwealth's economy. Nationally, this industry has about a 
$150 billion impact for the country.
    My association, the Pennsylvania Landscape and Nursery 
Association, and our Federal partner, the American Nursery and 
Landscape Association, have worked hard to find comprehensive 
solutions to our Nation's immigration crisis. This crisis 
includes problems with the H2B visas/seasonal guest worker 
labor program.
    For 5 years, I have been using the H2B visa program to 
obtain guest workers for positions with my company for which I 
have been unable to find local workers. The H2B program was 
designated for seasonal industries.
    Remember, not just my company and my industry participate 
in the H2B program. Minor league baseball players and hockey 
players come here on H2B visas. So do seafood workers in 
Maryland and Virginia, salmon processors in Alaska, shrimp and 
crawfishers in the Gulf.
    Resorts, from Hilton Head and Myrtle Beach, South Carolina 
to Nantucket, Cape Cod, Branson, Mackinaw Island, and our ski 
communities, from Vermont to California, all have to turn to 
the H2B program to stay in operation.
    America's most beautiful treasures, including the Grand 
Canyon, Sequoia, and Yosemite National Parks need H2B workers 
in order to serve visitors from the U.S. and around the world. 
Stone quarries from New Hampshire to Utah rely on the H2B visa 
workers as well, and H2B visa workers save lives along our 
coasts every day, and put out forest fires.
    The program represents a critical component in the success 
of my company and provides workers that I cannot find in my 
region of the State. I can tell you without hesitation that 
there are not enough native-born available American workers to 
fully staff and grow my business.
    This is hot, physically demanding seasonal work. Entry-
level agriculture and manual jobs are, quite frankly, not the 
ambition of most young Americans.
    If you are unconvinced from myself and my colleagues, 
witness the requirements of the H2B visa program: I must 
advertise in the Pittsburgh papers to attempt to fill an open 
position with an American worker.
    If I cannot find an American worker to do the job, I can 
apply for an H2B visa, at a substantial expense, and with the 
direction of four separate government agencies. The H2B program 
requires me to pay a federally mandated rate that is higher 
than the minimum wage to both my American and my seasonal guest 
workers.
    These workers must go home every year, and I must go 
through this process again each year as proof that an American 
worker has not become available for my positions.
    Due to program limitations, especially the artificial cap 
on allowable visas, I risk investing time and money in finding 
a guest worker who may not obtain authorization to return the 
next season. If the cap is left artificially low, a black 
market of unauthorized workers is unintentionally encouraged.
    Even with these limitations, the H2B program at least 
presents an opportunity, maybe the only opportunity for 
thousands of communities with seasonal employment needs, to 
obtain an adequate work force. An adequate work force allows me 
to create and maintain year-round jobs for Pennsylvanians in 
landscape design, sales, and management.
    My Jamaican H2B workers--and I like to point out Jamaican, 
because I think immigration in my industry is way beyond the 
Latinos and Hispanics--do excellent work: they are motivated, 
they are more than physically competent, and they have a strong 
work ethic.
    Many of my H2B workers have been coming back for several 
years. These workers are like family to me and my colleagues. 
They like the program, which allows them to earn a good living 
and spend their winters with their families back in their 
homeland. We like the program, which ensures a dedicated, 
satisfied work force year after year.
    However, the program is flawed. It is capped at 66,000 
workers per year. Two years ago, the cap hit before my workers' 
paperwork had been fully processed. That season, I lost my 
workers and I lost a half a million dollars in potential 
business revenue as a result.
    In 2005, Congress passed the Save Our Small and Seasonal 
Business Act legislation that greatly extended the program by 
exempting many returning workers from the cap. However, this 
was simply a 1-year program extension. The return worker 
exemption should be made permanent and the cap should be 
altered to allow the program to realistically expand based on 
the needs of the American economy.
    The Senate has offered some relief. The 3-year extension of 
the Returning Worker Exemption is a crucial part of this 
comprehensive immigration reform bill that you passed in May.
    The Senate also provided needed solutions and reforms to 
the landscape and nursery industry, including time- tested and 
bipartisan provisions for agriculture and the H2A program.
    As we heard earlier from Representative Hershey, 
agriculture is the largest industry in Pennsylvania. Our 
nurseries, our farms, and our agri-businesses need staffing 
solutions. We need to keep our workers and we need to fix the 
broken visa programs, thus matching willing documented workers 
with willing employers.
    Those of us who use and understand these programs know that 
they create needed legal channels for temporary workers to 
enter the U.S. safely and legally.
    Chairman Specter. Mr. Eichenlaub, how much more time do you 
need?
    Mr. Eichenlaub. About one more second.
    They contribute to our economy and return home at the 
proper time. We all support secure borders. It is ludicrous to 
think that we can secure our borders without creating workable 
legal channels like H2B and the proposed new H2C program.
    On behalf of the landscape and nursery industry, and of 
many small businesses across our country, I call upon the House 
to come to the table to work with the Senate to pass 
comprehensive immigration reform and fix the H2B program and 
help grow our small and seasonal businesses.
    Thank you, Mr. Chairman.
    Chairman Specter. Thank you, Mr. Eichenlaub.
    [The prepared statement of Mr. Eichenlaub appears as a 
submission for the record.]
    Chairman Specter. Our next witness is Reverend Louis 
Cortes, Jr., President and CEO of Esperanza USA, the largest 
Hispanic faith-based community development corporation in the 
country. He served as Vice Chair of the Federal Home Loan Bank 
Board of Pittsburgh, and in January of 2005, was featured as 
one of Time Magazine's 25 most influential evangelicals.
    He has a Master's degree in divinity from the Union 
Theological Seminary and a Master of Science in Economic 
Development from New Hampshire College.
    We appreciate your being here, Reverend Cortes. The floor 
is yours.

  STATEMENT OF REVEREND LUIS CORTES, JR., PRESIDENT AND CEO, 
           ESPERANZA USA, PHILADELPHIA, PENNSYLVANIA

    Reverend Cortes. Thank you, Mr. Chairman, and thank you, 
Senator Kennedy.
    Immigration is the number-one issue of concern to 40 
million Hispanic American citizens in this country. For us, 
immigration is about family: grandparents, parents, uncles, 
sisters, and brothers who have undocumented status. It is about 
family values, about work, and living productive lives as 
contributing members of our community.
    Mr. Chairman, you asked I address concerns about State and 
local law enforcement having authorities and responsibilities 
to enforce Federal immigration law.
    Enforcement of Federal immigration statutes must remain a 
Federal responsibility. It is especially critical that 
emergency 911 first responders have no enforcement or reporting 
responsibilities whatsoever.
    Giving State and local law enforcement authorities even 
partial reporting responsibilities for Federal immigration law 
enforcement would, quite simply, endanger the health and safety 
of Hispanic and non-Hispanic ommunities and would reverse and 
disintegrate years of progress in community programs, and 
transform what is today a close, cooperative, and productive 
relationship between clergy and State and local law enforcement 
into an adversarial one.
    There is some good news. Today, clergy--not just Hispanic 
clergy, but all clergy--work with State and local law 
enforcement. We are often the first to be called when youth get 
into trouble. Truancies, runaways, and even gang violence are 
areas where we partner with police. We partner in matters of 
domestic violence, drug interdiction and enforcement, and 
police-community relations.
    Today, communities are safer, healthier places thanks to 
years of close collaboration between local law enforcement and 
clergy. Our charter high school, Nueva Esperanza Academy, 
participates in the Safe Street Corridors program, where a 
police squad, working with parent volunteers, create safe 
passage for children to go to and from school.
    Hundreds of programs like these depend on relationships of 
trust between State and local law enforcement and the faith 
community. To deputize local police is to break the trust that 
we have worked so hard to build.
    There is, Mr. Chairman, a dark side to this immigration 
reform. Over 50 million people can no longer call the police to 
defend and protect them. That is the 12 million undocumented, 
the 3 million American citizen children of those undocumented, 
and their 30 to 40 million citizen family members. We would 
create a second class, with no access to protection, one that 
is constantly at risk and vulnerable to the most heinous 
individuals.
    Lifelong criminals would now have easy prey. Violent 
criminals would have more rights than hardworking members of 
communities whose only infraction was the misdemeanor offense 
of entering our country looking for work, or citizens who can 
no longer count on local police protection because of an 
undocumented family member.
    Take the Safe Corridors program I just mentioned our 
charter school participates in. Does the same police officer 
who, today is creating safe passage, now pick up a citizen 
child to capture the undocumented parent?
    Would religious and public after-school programs become 
sites where police could find undocumented parents as they pick 
up their children? Hundreds of programs like these would have 
to shut down.
    A separate, but very real, issue for clergy is how to 
handle police officers who attend our churches. Would we need 
to create churches solely for our officers? By far the darkest 
of all new realities would be the many ways criminals would 
take advantage of law enforcement's role in immigration 
enforcement to enhance their criminal enterprises.
    All undocumented immigrants instantly become targets. 
Hardworking American citizens who have an undocumented family 
member in the home becomes susceptible to the blackmailer, 
making them into victims of crime, or even recruiting them for 
criminal activity.
    Undocumented mothers or their daughters become instant 
targets for unreported rape and abuse. The rapist will 
mockingly hand over the phone and dare them to call 911. 
Unscrupulous police officers will use their new authority to 
their advantage, forcing the undocumented to bend to their 
will.
    Racial profiling will become standard. Will those of 
Hispanic descent have to constantly prove our citizenship while 
others do not? Will I have to have proof of my citizenship even 
when I sit in my own home? Many will say this will not happen 
here, but this has happened before, which is why our clergy and 
I fear this as a very real problem.
    During World War II, neighbors turned in their Japanese-
American neighbors. Even though we were at war with Japan, 
today we acknowledge the injustice of the internment camps and 
of racially profiling all of a particular ethnic descent.
    In the 1930's, tens of thousands--possibly more than 
400,000--Mexican and Mexican-American citizens were forced to 
leave our country. Many of those citizens were children who 
were extradited without due process.
    These issues are not limited to Hispanic communities, but 
would be replicated in Russian-Jewish communities, African-
Ethiopian, Asian, and Irish immigrant communities as well.
    In closing, Mr. Chairman and Senator Kennedy, I am afraid 
of the tenor of this immigration dialog, especially by those in 
our House of Representatives. House Resolution 4437 will make 
me and thousands of clergy in this country felons for feeding 
the hungry and taking care of the stranger.
    Old and New Testament mandates clergy of many faiths to 
perform this, regardless of your colleagues' law- making. I 
have heard members of the House of Representatives say, 
``Choking off the jobs of illegals will cause them to starve 
and force them to leave our country.''
    I stand with hundreds of thousands of my ministerial 
colleagues who will go to jail if necessary rather than to 
starve 12 million people and their 3 million American citizen 
children. Members of Congress should be ashamed of speaking in 
that manner.
    Fortunately, I know there are millions of Americans that 
will not tolerate the starving of innocent children or of 
undocumented people in our country. I know this is not the 
America you have worked so hard to build and protect. I urge 
you to share with your colleagues in the House and in the 
Senate the very real dangers contained in the policies that are 
now being debated.
    I thank you again for this opportunity, Senator Specter and 
Senator Kennedy.
    Chairman Specter. Thank you very much, Reverend Cortes.
    [The prepared statement of Reverend Cortes appears as a 
submission for the record.]
    Chairman Specter. We now turn to Ms. Eileen Connelly, who 
is the Executive Director of the State Council of Service 
Employees International Union in Pennsylvania.
    Ms. Connelly began her career as a medical lab technician 
in Hazelton St. Joseph Hospital. In the interim, since 1984, 
she has negotiated many hospital contracts and many of the 
nursing home contracts.
    We appreciate your being here, Ms. Connelly, and we look 
forward to your testimony.

    STATEMENT OF EILEEN CONNELLY, EXECUTIVE DIRECTOR, SEIU 
      PENNSYLVANIA STATE COUNCIL, HARRISBURG, PENNSYLVANIA

    Ms. Connelly. Thank you, Senator Specter and Senator 
Kennedy.
    SEIU is the largest and fastest-growing union in North 
America. We currently represent about 1.8 million workers 
nationally, and we have 60,000 here in Pennsylvania that we 
represent, mainly in health care, in property services, and in 
public service employment of State, county, and municipal 
workers.
    We also represent, among them, thousands of immigrants, 
working as janitors, nursing home assistants, and home health 
care aides.
    SEIU supports comprehensive immigration reform. We believe 
that the problem is not immigration, but rather a broken 
immigration system that fails to provide orderly legal channels 
to come to work in this country within the industries that need 
workers the most.
    It fuels an underground economy where workers have little 
protection and are forced to work for bad pay and in hazardous 
conditions, which undermines the standards of all workers.
    Our union is working in Pennsylvania, and around the 
country, to get Congress to pass a ``Break the Mold'' solution 
that includes tough, effective work site enforcement, a 
realistic program to bring undocumented immigrants out of the 
shadows and into the legal work force, and a new worker program 
that channels future immigrants through a controlled, orderly 
process.
    Without comprehensive immigration reform, critical 
industries in our country, like long-term nursing care and 
janitorial services, face critical worker shortages. It is 
estimated that 5 million direct-care workers will be needed by 
the year 2030 to take care of people, and we do not have enough 
native-born workers to fill our needs.
    Some employers use undocumented immigrant status as a 
weapon against them, threatening deportation when workers seek 
to join unions or if they complain about illegal working 
conditions.
    The bottom line is, exploitation of undocumented immigrants 
drives down wages for all working Americans, and the only 
solution is for Congress to pass real, comprehensive reform.
    First, put simply, an enforcement-only approach will not 
work. We know that employers have substantial demand for 
immigrant labor. If we do not create legal channels for workers 
to come to this country, they will continue to come illegally.
    The heart of real immigration reform must be a combination 
of tough work site enforcement and ample legal flows so that 
employers have enough workers, and all workers have workplace 
protections, regardless of their immigration status.
    Second, work site enforcement of immigration rules will 
never succeed as long as millions of existing workers lack 
legal status, and real reform must move these workers out of 
the shadows and into the formal economy.
    If employers start with millions of undocumented workers 
already on their payrolls, it is unrealistic to think we can 
create an effective employer-sanctioned regime.
    Third, it is essential that future legal immigrants enjoy 
the full protection of our labor laws and that any new 
temporary worker program include strong protections so that 
temporary workers do not undermine U.S. wages.
    Our experience with flawed temporary worker programs offer 
important lessons for a new worker program to avoid driving 
down U.S. wages. A new temporary worker program must have 
strong prevailing wage protections, must regulate the role of 
foreign labor contractors, must give immigrants the right to 
join U.S. unions and protect workers during union organizing 
campaigns.
    Every effort must be made to recruit U.S. workers, first. 
Workers must have portability. They must be able to vote with 
their feet by changing jobs to avoid employer exploitation and 
ensure that wages are competitive.
    All workers must be able to participate in their 
neighborhoods, their cities, and communities, which means they 
must have a path to citizenship. All these protections must be 
backed by vigorous work site enforcement by State and Federal 
Department of Labor and other enforcement agents, not by the 
Department of Homeland Security.
    The Senate-passed bill is a good start, but we believe 
needs improvement both on labor protections and the Title II 
criminalization and due process provisions, which continue to 
be very troubling. We continue to hope the bipartisan work 
demonstrated by the Senate will carry over to the U.S. House of 
Representatives.
    My union knows first-hand the value that immigrants provide 
to our economy and our union. Hundreds of thousands of our 
members are immigrants. Unfortunately, too many are 
undocumented, but they are hard-working and paying taxes, and 
have lived in the United States for many years. That is why I 
am here representing them, and representing SEIU.
    SEIU continues supporting comprehensive immigration reform, 
securing our borders both north and south, treating 
undocumented immigrants firmly, but fairly, by requiring them 
to undergo background checks, pay a fine, and learn English in 
exchange for getting on a path to citizenship, and addressing 
the need in our economy for future workers who have full 
protection of labor law and enforcement.
    Thank you for giving me this opportunity to testify today.
    Chairman Specter. Thank you very much, Ms. Connelly.
    [The prepared statement of Ms. Connelly appears as a 
submission for the record.]
    Chairman Specter. We will now proceed to questioning by 
Senator Kennedy myself. In light of the fact that we have six 
witnesses, we are going to each have a 10-minute round.
    Ms. Connelly, picking up on your testimony, and in line 
with what Mr. Eichenlaub said about the way of assure that 
Americans are not available for jobs before immigrants are 
hired, and looking to avoid an underground economy, which you 
have testified about, Mr. Bird, of the Department of Labor, has 
noted that there are 4.1 million jobs which need people at the 
present time, trying to address the issue of not having others 
take jobs where Americans can fill them or depressing wages.
    What do you think about the adequacy of the provisions of 
the Senate bill which would require that there be an effort to 
find U.S. people to fill a job before an immigrant is hired, 
and the provisions of the amendment offered by Senator Obama 
from Illinois to have Davis-Bacon as the prevailing wage to 
make sure that we maintain current standards?
    Ms. Connelly. I think it is all right to try to hire 
native-born, American-born people first for jobs. I think that 
part of what happens, is that those conditions are put on 
employers and they have to go too far, then jobs are not 
filled. We know, and it has been testified today, that there 
are enough American-born folks to fill the jobs that need to be 
filled.
    Chairman Specter. Well, are you concerned that there will 
be jobs taken by immigrants which could be filled by Americans?
    Ms. Connelly. Not in the industries that SEIU represents. 
That has not been a concern.
    Chairman Specter. I talked to a couple of members of the 
building trades, construction workers, and there is concern 
there.
    Ms. Connelly. Yes.
    Chairman Specter. What we are trying to do, is regulate the 
influx. Right now, there are complaints that immigrants are 
taking jobs which American could fulfill. What we are trying to 
structure is a system where, if the jobs could be filled by 
Americans, they will be.
    But where you hear the testimony from Representative 
Hershey about farm workers, or you hear Ms. Rossi, about 
hospitality and hotel workers, or Mr. Eichenlaub about 
landscapers, we have a shortage.
    Mr. Bird, from the overall point of view of the Department 
of Labor, what would the impact be on our economy if we did not 
have many jobs held by undocumented immigrants and if we did 
not have a guest worker program?
    Mr. Bird. Well, first of all, Senator, we cannot really 
address the question of undocumented versus documented. The 
data that is available tells us who is foreign-born, who is a 
naturalized citizen, versus a non- citizen resident. But other 
than that, the data that is available does not speak to the 
documentation status.
    Chairman Specter. If you have native-born, you know they 
are citizens.
    Mr. Bird. Right.
    Chairman Specter. Wait for the question. If you have 
foreign-born, does the evidentiary base, the statistical base 
give us any substantial basis for estimating the number of 
undocumented immigrants?
    Mr. Bird. I have seen estimates that have been made by 
others based on a pyramid of assumptions. The fundamental data 
that I see, such as the Current Population Survey data, and so 
forth, merely asks where you were born.
    Chairman Specter. Can you give us a professional judgment 
as to what the status of the economy would be if you did not 
have immigrants in the work force?
    Mr. Bird. I think, if we did not have immigrants, if we did 
not have foreign-born workers in the work force, we would have 
a big hole in our economy. They amount to 14 percent of the 
labor force, and that would be a hard hole to fill.
    Chairman Specter. Representative Hershey, what will the 
impact be on the foreign population, based upon your experience 
as Chairman of the Pennsylvania House of Representatives Farm 
and Rural Area Committee?
    Representative Hershey. If they could not get foreign 
workers?
    Chairman Specter. If you could not get immigrant workers.
    Representative Hershey. Some of the operations would 
collapse, literally collapse. We advertise in the paper for 
workers, and local people used to come around the farm when we 
look for help, but now they do not. So, it went to the 
immigrant labor. They are very good workers, and if we could 
not have them, the large operations would collapse.
    Chairman Specter. Ms. Rossi, how about in your field, in 
the hospitality line, hotels, restaurants?
    Ms. Rossi. I would estimate that 15 to 20 percent of our 
work force are foreign workers, so it would have a deadly 
impact on us. I think that is what gives us, restaurants and 
hotels, the character of who we are and what we are. You walk 
down any street and see all the different types of restaurants, 
it is very much infiltrated with foreign workers.
    Chairman Specter. How about the landscapers, Mr. 
Eichenlaub?
    Mr. Eichenlaub. Well, I wholly support it. I do not we have 
a problem with running the ads that I do every year to make 
sure there are no American workers available.
    I think the challenge that we run up against, just like I 
did when I could not get American workers and I started through 
the process to get foreign workers, I spent a ton of money and 
a lot of time, only to miss the deadline and not get the visas. 
So, I put the effort in and I did not get them.
    But my company specifically would be tremendously hurt. As 
you heard 2 years ago, when I did not get my guest workers, it 
cost me about a half a million dollars in revenue that I could 
not earn because I did not have the work force to do it.
    Chairman Specter. Mr. Eichenlaub, you say there is $5.6 
billion in the Pennsylvania economy. You say, nationally, there 
is $150 billion in landscaping.
    Mr. Bird, this may be an unanswerable question, but 
occasionally we ask questions like that.
    [Laughter.]
    Could you project what the figure would be nationally if 
you did not have an immigrant work force if you have $4.5 
billion from landscapers alone?
    Mr. Bird. I could look at that and get something back to 
you, perhaps.
    Chairman Specter. All right. That would be fine, if you 
would take a look at it.
    Mr. Bird. Rather than try to make calculations here.
    Chairman Specter. And report back?
    Mr. Bird. I would be happy to do that, sir.
    [The information appears as a submission for the record.]
    Chairman Specter. Reverend Cortes, in your testimony you 
expressed concerns regarding the alien smuggling provisions of 
the House bill, saying that the term would assist, and the 
criminal smuggling penalties would ``instantly transform all 
Hispanic clergy and many non- Hispanic clergy from community 
leaders to Federal criminals.''
    You also testified today that you are prepared to go to 
jail.
    Reverend Cortes. Yes, sir.
    Chairman Specter. Well, we do not want that to happen. How 
much assistance is given on a humanitarian basis by the clergy 
to immigrants, would you say? Could you quantify?
    Reverend Cortes. I can answer this way. Most of the 
undocumented in the Latino community that come to this country 
end up in our churches, whether they be Catholic or Protestant. 
So while we do not do a head count, we know, of the 8 million 
Hispanic undocumented, a significant portion of them are in our 
congregations. We feed people, we work with people, we counsel 
people.
    The way that legislation is written, anyone who aids and 
abets a person who is undocumented, it would create a felony if 
4437 would continue, which would make it what we call the 
Clergy Criminalization Act, because in essence, all clergy, not 
just Hispanic ministers, but anyone who works with a person who 
comes to their congregation, would be guilty of breaking that 
particular law, as it is written.
    Chairman Specter. Reverend Cortes, if immigration reform 
did not deal with the 11 million undocumented immigrants--and I 
would be interested in the response from anybody else in the 
panel who cares to answer--so that we create an underground 
economy, so we create a fugitive class, people who are on the 
run who may commit crimes--you do not have to be an immigrant 
to commit a crime, that is clear. But we do have that problem, 
or the potential for terrorism.
    What will we do with the 11 million undocumented 
immigrants?
    Reverend Cortes. What I heard some of our leaders in the 
House say, is that we need to cut them off from jobs, and if 
they have no jobs, they cannot have a livelihood. If they have 
no livelihood, they cannot eat, and if they cannot eat, they 
will go home.
    Senator, there is no way people can go home, because many 
of the undocumented have no home to go back to. When they speak 
this way, they are speaking of starving out 12 million 
undocumented.
    To me, I have difficulty thinking, or even understanding, 
how a Congressperson could say that, understanding that those 
12 million undocumented people have 3 million American citizen 
children.
    So what we would, in essence, do, is create an under class 
of people who would be susceptible to criminals and who would 
have to figure out how they are going to survive, especially if 
they have nowhere to go home to, which is the vast majority of 
them.
    Chairman Specter. So we would starve out 11 million 
undocumented immigrants and we would send to jail the 
humanitarian clergy of America.
    Reverend Cortes. That is correct, sir.
    Chairman Specter. Senator Kennedy?
    Senator Kennedy. Thank you, all. It has been a very 
worthwhile panel.
    I would like to start with Reverend Cortes. Why is this 
such a moral issue? We had a good hearing with our earlier 
panel, and with this panel here. We have talked about the 
problems of enforcement, we have talked about issues on the 
temporary worker program, we have talked about the complexity 
dealing with the challenges of immigration reform.
    Why do you say that this is a moral issue for our country? 
I know you are reluctant, perhaps, to speak for others in the 
religious community, but if you would, why do they feel so 
strongly about the importance of this issue? If they do, why do 
they favor a more comprehensive approach?
    Reverend Cortes. If you are Jewish, Muslim or Christian, 
you believe in the Old Testament, and Christians believe in the 
New Testament. The Old Testament, in Leviticus, the 25th 
chapter, it talks about how we treat the stranger in our midst.
    Senator Kennedy. Matthew chapter twenty-five?
    Reverend Cortes. And in Matthew chapter 25, we talk about 
the same. For us, a country is judged by how it treats the 
least of these. For clergy, regardless of their faith, 
humanitarian issues become more important, even than economic 
ones.
    For people of faith in this country, it is a step backward. 
We move away from our democratic underpinnings when we shut 
down borders in a manner that is inappropriate. No clergy has a 
problem that I know of with protecting the border.
    That has never been an issue among clergy. Every nation has 
a sovereign right. Even Mexico has troops in its southern 
border; it is not discussed much, but they do, to protect their 
southern border.
    So the issue really is what do we do as a Nation with 12 
million people who came here, most of whom came here because we 
asked them to directly, or indirectly by economic means.
    For the clergy in this country, comprehensive immigration 
reform would include a guest worker program and provisions for 
the 12 million undocumented people. It would also need for the 
House of Representatives and members of the Senate to 
understand the word ``amnesty,'' because we are running a 
public relations program that has used the word ``amnesty'' in 
an incorrect manner.
    So for us as clergy, when we see this, we see members of 
Congress literally lying about what amnesty and what different 
provisions that have come forth from the Senate mean.
    So we back the Kennedy-McCain bill, we back the Specter 
bill, we backed Hagel-Martinez. For us, the issue was, what do 
we do with 12 million undocumented people? Do we become a 
Nation that hunts people down and creates a fear element within 
it or do we become a Nation that is strong and continues to 
foster its heritage?
    Senator Kennedy. Well, I wonder, just continuing along that 
line, most of us, as you have pointed out, understand that 
those who come here, work hard, play by the rules, want to 
provide for their families, and are devoted to their religion.
    As we mentioned earlier, 76 individuals in the Armed Forces 
were naturalized on the Fourth of July in Iraq. More than 
70,000 immigrants have served in the Armed Forces.
    But let me ask you this. Why is this a family issue? I have 
listened to you talk with great eloquence about why this is a 
family issue. I think it is important that we have in the 
record why we understand that this is both a moral issue and a 
family issue, and not just provisions in the legislation.
    I think you have spoken about why it is a fairness issue. 
We take great pride in this country about valuing family. I am 
interested in why you believe that this particular issue is a 
family issue.
    Reverend Cortes. Of the 12 million undocumented, 8 million 
are Hispanic. Those 8 million, just about all of those 8 
million, are related to 40 million Americans who happen to also 
be Hispanic. It is never discussed, but we have families that 
sit at the dinner table where you have three or four different 
statuses.
    Many of our people come into this country legally, but they 
would have to leave after four, six, or eight years because 
their paperwork cannot get moved, so they choose to stay with 
family. So it is a family values issue. It is about family, 
because the vast majority of the folks who are undocumented 
are, in fact, family members of American citizens.
    Senator Kennedy. I just have a final question for you. I 
know you are familiar with Cardinal Mahoney, a Catholic 
Cardinal from Los Angeles. He talked about the House 
legislation, that not only criminalizes the undocumented but 
criminalizes individuals that help the undocumented or 
organizations that help the undocumented. Cardinal Mahoney 
asked, what am I supposed to tell a mother who is faced with 
the choice of remaining here in violation of immigration laws 
or staying with her sick child? He said, I would fall under the 
provision that criminalizes.
    Do you feel, and do members of your community, the 
religious community, feel the same way on the criminalization 
provisions?
    Reverend Cortes. I would answer in two ways. Hispanic 
ministers have already stated that they will, in fact, become 
civilly disobedient. I also know, I was at a meeting where the 
President of the United States was present, where the head of 
the Salvation Army said to him that he would march all his 
people directly to prison.
    Senator Kennedy. I thank you for your response. I only have 
a few minutes left.
    The one point that is worthwhile to understand, is that the 
legislation has real enforcement provisions. Reverend Cortes, I 
was there in 1986. That was amnesty. There were no 
requirements, there were no penalties, there was no review of 
the work record, there was no requirement of learning English. 
We had no going to the back of the line.
    And when I listened on the floor of the Senate as people 
talked about it, those were the circumstances. We never had 
adequate enforcement provisions. This is the big and very 
important difference, as Senator Specter has pointed out, and 
Senator McCain and others have pointed out.
    There are very important enforcement provisions. We add the 
7,000 Department of Homeland Security investigators. We add 
2,000 Department of Labor investigators. Currently, there are 
only 60 or 70 investigators in the Labor Department.
    Three cases have been brought by the Labor Department in 
this last year in terms of the undocumented. So we have what we 
believe is a balanced program, and a comprehensive one.
    I just have a couple of minutes left, and I want to just 
take those 2 minutes to once again thank Senator Specter for 
this hearing. We were asked at the press conference before 
coming in, do you think you are going to hear anything really 
new? Senator Specter and I have been through comprehensive 
hearings. The basic structure of the legislation is probably 
two and a half, three years old. We have had day after day, 
hour after hour mark-ups, and hours of debate. But today we did 
learn, or at least I did, and it has been very helpful.
    I want to thank Senator Specter for having this hearing, 
and I want to thank our panelists. This is a complex issue. It 
takes the best judgment, the cooperation, the good common sense 
of all Americans to try to get this done. These very important 
statements and comments we heard today have been extremely 
constructive and helpful, certainly to this Senator.
    The best way that we can really demonstrate our 
appreciation for your time and effort more importantly to our 
country, is to pass real, comprehensive immigration reform that 
is going to protect our borders and provide security. It should 
also recognize that we have valuable immigrants that have come 
here. And under the appropriate circumstances we have 
described, it should give them the opportunity to be part of 
this American family. We need real enforcement that will 
reflect our own humanitarian history and tradition. We need to 
do what is right for this country and also demonstrate to the 
rest of the world our values by passing a fair, just, and 
tough-minded immigration policy.
    I thank the Senator.
    Chairman Specter. Well, Senator Kennedy, thank you very 
much for participating today, and for your leadership. We are 
moving ahead on this legislation. We will be having further 
hearings during the recess period in August, nationally.
    The House of Representatives is having a hearing today in 
San Diego, California. There are differences between the House 
bill and the Senate bill. Last Thursday, a group of members 
from both the Senate and the House met to talk about ways of 
coming together.
    The President is providing leadership to try to bring the 
Houses together. It is our job as legislatures to find 
accommodations. We have a bicameral system. We cannot legislate 
in the House alone or in the Senate alone, we have to come to 
an agreement. But that is our responsibility.
    So there is no doubt there is a problem, and our job is to 
find the best answer to the problem. We will work at that, and 
I believe we can meet that responsibility. That is what we were 
elected to do, and we will proceed to do it.
    We thank the panel for being here today. Mr. Bird, 
Representative Hershey, Ms. Rossi, Mr. Eichenlaub, Reverend 
Cortes, and Ms. Connelly, thank you for your testimony. We have 
learned more and we will continue to learn more, and we are 
open to suggestions.
    Ms. Connelly has ideas as to how to improve the Senate 
bill. We are open. We are not in concrete. We do not have all 
the answers. We come to people in the field who know what the 
problems are to help us provide the answers.
    We turn to Reverend Cortes for an understanding as to what 
the clergy have to say, and what the Hispanic community has to 
say. Fundamentally, we are a Nation of immigrants.
    When I went through the Constitution Center earlier today, 
it is worth mentioning again, and saw Irving Berlin in a World 
War I outfit, I thought of my father, who wore the same kind of 
an outfit.
    My father came to this country in 1911 at the age of 18. 
The Czar wanted to send him to Siberia, and as I said before, 
he wanted to go to Kansas. It was a close call, but he ended up 
in Kansas.
    [Laughter.]
    My mother came as a child of six with her parents, also 
from Ukraine, and settled in the Midwest. I think my brother, 
two sisters, and I have contributed to this country. Senator 
Kennedy has proud Irish roots. Everybody wearing the tee shirt, 
``Legalize the Irish,'' are now permitted to applaud.
    [Laughter.]
    [Applause.]
    Chairman Specter. Senator Kennedy?
    Senator Kennedy. Well, just as Senator Specter has told the 
story, I can look out of my office window in the JFK Building 
in Boston and see the dock, where eight of my great-great 
grandparents arrived, got off the boat, and then they walked up 
what they called the Golden Stairs in East Boston. Those docks 
are still there and those stairs are still there, and it is a 
constant reminder.
    Chairman Specter. Well, it is nice to have applause from 
those wearing the ``Legalize the Irish'' tee shirts. You did 
not need the Chairman's permission to applaud. You applauded 
during the course of the proceeding. There is a little placard 
in every hearing room in Washington, ``If there is any 
demonstration, bang the gavel and have the room cleared.''
    Well, we did not have that little document here so I could 
not remember what to do.
    [Laughter.]
    But I believe there needs to be some flexibility in 
enforcement of the rules for audiences, as well as from 
immigrants.
    That concludes our hearing.
    [Applause.]
    [Whereupon, at 12:30 p.m. the hearing was adjourned.]
    [Submissions for the record follow.]

    [GRAPHIC] [TIFF OMITTED] T0254.001
    
    [GRAPHIC] [TIFF OMITTED] T0254.002
    
    [GRAPHIC] [TIFF OMITTED] T0254.003
    
    [GRAPHIC] [TIFF OMITTED] T0254.004
    
    [GRAPHIC] [TIFF OMITTED] T0254.005
    
    [GRAPHIC] [TIFF OMITTED] T0254.006
    
    [GRAPHIC] [TIFF OMITTED] T0254.007
    
    [GRAPHIC] [TIFF OMITTED] T0254.008
    
    [GRAPHIC] [TIFF OMITTED] T0254.009
    
    [GRAPHIC] [TIFF OMITTED] T0254.010
    
    [GRAPHIC] [TIFF OMITTED] T0254.011
    
    [GRAPHIC] [TIFF OMITTED] T0254.012
    
    [GRAPHIC] [TIFF OMITTED] T0254.013
    
    [GRAPHIC] [TIFF OMITTED] T0254.014
    
    [GRAPHIC] [TIFF OMITTED] T0254.015
    
    [GRAPHIC] [TIFF OMITTED] T0254.016
    
    [GRAPHIC] [TIFF OMITTED] T0254.017
    
    [GRAPHIC] [TIFF OMITTED] T0254.018
    
    [GRAPHIC] [TIFF OMITTED] T0254.019
    
    [GRAPHIC] [TIFF OMITTED] T0254.020
    
    [GRAPHIC] [TIFF OMITTED] T0254.021
    
    [GRAPHIC] [TIFF OMITTED] T0254.022
    
    [GRAPHIC] [TIFF OMITTED] T0254.023
    
    [GRAPHIC] [TIFF OMITTED] T0254.024
    
    [GRAPHIC] [TIFF OMITTED] T0254.025
    
    [GRAPHIC] [TIFF OMITTED] T0254.026
    
    [GRAPHIC] [TIFF OMITTED] T0254.027
    
    [GRAPHIC] [TIFF OMITTED] T0254.028
    
    [GRAPHIC] [TIFF OMITTED] T0254.029
    
    [GRAPHIC] [TIFF OMITTED] T0254.030
    
    [GRAPHIC] [TIFF OMITTED] T0254.031
    
    [GRAPHIC] [TIFF OMITTED] T0254.032
    
    [GRAPHIC] [TIFF OMITTED] T0254.033
    
    [GRAPHIC] [TIFF OMITTED] T0254.034
    
    [GRAPHIC] [TIFF OMITTED] T0254.035
    
    [GRAPHIC] [TIFF OMITTED] T0254.036
    
    [GRAPHIC] [TIFF OMITTED] T0254.037
    
    [GRAPHIC] [TIFF OMITTED] T0254.038
    
    [GRAPHIC] [TIFF OMITTED] T0254.039
    
    [GRAPHIC] [TIFF OMITTED] T0254.040
    
    [GRAPHIC] [TIFF OMITTED] T0254.041
    
    [GRAPHIC] [TIFF OMITTED] T0254.042
    
    [GRAPHIC] [TIFF OMITTED] T0254.043
    
    [GRAPHIC] [TIFF OMITTED] T0254.044
    
    [GRAPHIC] [TIFF OMITTED] T0254.045
    
    [GRAPHIC] [TIFF OMITTED] T0254.046
    
    [GRAPHIC] [TIFF OMITTED] T0254.047
    
    [GRAPHIC] [TIFF OMITTED] T0254.048
    
    [GRAPHIC] [TIFF OMITTED] T0254.049
    
    [GRAPHIC] [TIFF OMITTED] T0254.050
    
    [GRAPHIC] [TIFF OMITTED] T0254.051
    
    [GRAPHIC] [TIFF OMITTED] T0254.052
    
    [GRAPHIC] [TIFF OMITTED] T0254.053
    
    [GRAPHIC] [TIFF OMITTED] T0254.054
    
                                 <all>

</pre></body></html>
